<html>
<title> - CHALLENGES TO AMERICAN COMPETITIVENESS IN MATH AND SCIENCE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
       CHALLENGES TO AMERICAN COMPETITIVENESS IN MATH AND SCIENCE

=======================================================================

                                HEARING

                               before the

              SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              May 19, 2005

                               __________

                           Serial No. 109-18

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-303                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Howard P. ``Buck'' McKeon,           Major R. Owens, New York
    California                       Donald M. Payne, New Jersey
Michael N. Castle, Delaware          Robert E. Andrews, New Jersey
Sam Johnson, Texas                   Robert C. Scott, Virginia
Mark E. Souder, Indiana              Lynn C. Woolsey, California
Charlie Norwood, Georgia             Ruben Hinojosa, Texas
Vernon J. Ehlers, Michigan           Carolyn McCarthy, New York
Judy Biggert, Illinois               John F. Tierney, Massachusetts
Todd Russell Platts, Pennsylvania    Ron Kind, Wisconsin
Patrick J. Tiberi, Ohio              Dennis J. Kucinich, Ohio
Ric Keller, Florida                  David Wu, Oregon
Tom Osborne, Nebraska                Rush D. Holt, New Jersey
Joe Wilson, South Carolina           Susan A. Davis, California
Jon C. Porter, Nevada                Betty McCollum, Minnesota
John Kline, Minnesota                Danny K. Davis, Illinois
Marilyn N. Musgrave, Colorado        Raul M. Grijalva, Arizona
Bob Inglis, South Carolina           Chris Van Hollen, Maryland
Cathy McMorris, Washington           Tim Ryan, Ohio
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   John Barrow, Georgia
Luis G. Fortuno, Puerto Rico
Bobby Jindal, Louisiana
Charles W. Boustany, Jr., Louisiana
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Jon C. Porter, Nevada Vice Chairman  Dale E. Kildee, Michigan
John A. Boehner, Ohio                Donald M. Payne, New Jersey
Thomas E. Petri, Wisconsin           Carolyn McCarthy, New York
Michael N. Castle, Delaware          John F. Tierney, Massachusetts
Sam Johnson, Texas                   Ron Kind, Wisconsin
Vernon J. Ehlers, Michigan           David Wu, Oregon
Patrick J. Tiberi, Ohio              Rush D. Holt, New Jersey
Ric Keller, Florida                  Betty McCollum, Minnesota
Tom Osborne, Nebraska                Chris Van Hollen, Maryland
Bob Inglis, South Carolina           Tim Ryan, Ohio
Cathy McMorris, Washington           Robert C. ``Bobby'' Scott, 
Tom Price, Georgia                       Virginia
Luis G. Fortuno, Puerto Rico         Susan A. Davis, California
Charles W. Boustany, Jr., Louisiana  Timothy H. Bishop, New York
Virginia Foxx, North Carolina        John Barrow, Georgia
Thelma D. Drake, Virginia            Major R. Owens, New York
John R. ``Randy'' Kuhl, Jr., New     George Miller, California, ex 
    York                                 officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 19, 2005.....................................     1

Statement of Members:
    Kildee, Hon. Dale E., Ranking Member, Subcommittee on 21st 
      Century Competitiveness, Committee on Education and the 
      Workforce..................................................     4
        Prepared statement of....................................     5
    McKeon, Hon. Howard P. ``Buck'', Chairman, Subcommittee on 
      21st Century Competitiveness, Committee on Education and 
      the Workforce..............................................     1
        Prepared statement of....................................     3
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................    47

Statement of Witnesses:
    Augustine, Norman R., Retired Chairman and CEO, Lockheed 
      Martin Corporation, Bethesda, MD...........................     7
        Prepared statement of....................................     9
    Magnanti, Dr. Thomas L., Dean, School of Engineering, 
      Massachusetts Institute of Technology, Cambridge, MA.......    12
        Prepared statement of....................................    15
    Songer, Dr. Nancy Butler, Professor of Science Education and 
      Learning Technologies, University of Michigan, Ann Arbor, 
      MI.........................................................    23
        Prepared statement of....................................    25
    Streckfus, June E., Executive Director, Maryland Business 
      Roundtable for Education, Baltimore, MD....................    19
        Prepared statement of....................................    21


       CHALLENGES TO AMERICAN COMPETITIVENESS IN MATH AND SCIENCE

                              ----------                              


                         Thursday, May 19, 2005

                     U.S. House of Representatives

              Subcommittee on 21st Century Competitiveness

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 2175, Rayburn House Office Building, Hon. Howard P. 
``Buck'' McKeon [Chairman of the Subcommittee] presiding.
    Present: Representatives McKeon, Ehlers, Osborne, Inglis, 
Price, Boustany, Kildee, Kind, Holt, McCollum, Van Hollen, and 
Davis of California.
    Staff present: Kevin Frank, Professional Staff Member; 
Allison Griffin, Professional Staff Member; Krisann Pearce, 
Deputy Director of Education and Human Resources Policy; Amy 
Raaf, Professional Staff Member; Deborah L. Samantar, Committee 
Clerk/Intern Coordinator; Kevin Smith, Senior Communications 
Advisor; and Brad Thomas, Legislative Assistant; Ricardo 
Martinez, Minority Legislative Associate/Education; Alex Nock, 
Minority Legislative Associate/Education; and Joe Novotny, 
Minority Legislative Assistant/Education.
    Chairman McKeon. A quorum being present, the Subcommittee 
on 21st Century Competitiveness of the Committee on Education 
and the Workforce will come to order. We're holding this 
hearing today to hear testimony on challenges to American 
competitiveness in math and science. Under Committee Rule 
12(b), the opening statements are limited to the Chairman and 
the Ranking Minority Member of the Committee. Therefore, if 
other Members have statements, their statements will be 
included in the record.
    With that, I ask unanimous consent for the hearing record 
to remain open 14 days to allow Members' statements and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record. Without objection, so 
ordered.

    STATEMENT OF HON. HOWARD P. ``BUCK'' McKEON, CHAIRMAN, 
  SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    Good morning. Thank you all for joining us on this 
beautiful day for this important hearing to hear testimony 
about challenges to American competitiveness in math and 
science. I want to welcome our witnesses and thank them for 
taking the time to appear before the Subcommittee.
    Today's hearing is to examine what is happening within 
America's educational system in the fields of math and science 
that is hampering U.S. advancement and what American schools 
and the business community can and should be doing to reverse 
that his trend and to bolster American competitiveness.
    Some have suggested that we could improve our 
competitiveness in math and science fields by providing 
increased incentives to math and science graduates. With the 
average starting salary for engineering majors approximately 
$50,000, this is 66 percent more than the average for liberal 
arts majors and 43 percent more than the average for business 
administration majors. In addition, many high tech businesses 
have high skilled jobs available, but they can't find enough 
workers here to fill their needs. Clearly, there are already 
ample incentives to attain degrees in math and science and 
engineering.
    I believe the problem is more a pipeline issue. There are 
simply not enough students going through the K-12 system and 
the higher education system that are really interested in 
science. And for those students that are interested in science 
careers, they must overcome a number of obstacles along their 
educational path. For example, according to the National 
Science Foundation, 46 percent of math teachers did not major 
or minor in math in college. How can we get students to be 
enthusiastic about math when math was not the main interest of 
the teacher?
    We have English teachers teaching math. We have teachers 
from other fields, other majors, that are trying to excite and 
motivate our students in the areas of math and science. When I 
was in Hong Kong recently, all of the teachers in junior high 
and high school there in math were math majors, science majors.
    In addition, according to some studies, only half of the 
students who begin college to pursue math and science actually 
graduate with a degree in math or science within 6 years. 
Institutions of higher education can and should do more to 
recruit and retain these students.
    Lately I've been reading the book, ``The World is Flat'', 
by Thomas Friedman, where he argues that technical innovations 
and investment in the 1990's made the world flat so that 
countries like China and India that were once marginalized can 
now compete with the United States on the global stage. We put 
out all this money, we built the net, we built this worldwide 
web, and all they need is a computer, and they can compete.
    He even comments in the book that 20 years ago if you had 
had the choice to be born a B student in Boston or a genius in 
China, you would have taken the B student in Boston. But now if 
you're a genius anywhere in the world, you can compete and 
compete well.
    I've met a number of business executives and leaders from 
high tech companies from my district and around the State of 
California and across the country, and they've encouraged me to 
visit China and India. They said you've got to go around and 
see what's happening. So we did. We took a congressional 
delegation a few weeks ago. Three of my colleagues on this 
Committee joined us on that trip, and it was a great trip.
    We saw tall skyscrapers in Shanghai on land that 15, 20 
years ago was agriculture. Our hotel room was on the 87th 
floor, and I don't do well with heights, so. But it was 
amazing. I look at that, and I know where I come from, we would 
not have been able to go through an EIR in the time that they 
build those skyscrapers. So we've got to--we really need to 
wake up and see what we can do to compete.
    While the U.S. still leads the world in scientific and 
technological innovation, we must continue to be adaptive and 
flexible to meet the challenges of today and tomorrow.
    Our witnesses that are with us today will testify on what 
can be done at the K-12 level, what institutions of higher 
education can do to increase math and science graduation rates, 
and the problems that high tech companies are facing to fill 
the needs of their workforce.
    I want to thank all of you for being here today, and I look 
forward to hearing your testimony.
    I now yield to my good friend from Michigan, Mr. Kildee. 
We've been at this now for a few years. It's good to be here 
with him, and I yield what time he desires for his opening 
statement.
    [The prepared statement of Chairman McKeon follows:]

Statement of Howard P. ``Buck'' McKeon, Chairman, Subcommittee on 21st 
   Century Competitiveness, Committee on Education and the Workforce

    Good morning. Thank you all for joining us for this important 
hearing to hear testimony about challenges to American competitiveness 
in math and science. I want to welcome our witnesses and thank them for 
taking the time to appear before the subcommittee.
    Today's hearing is to examine what is happening within America's 
educational system in the fields of math and science that is hampering 
U.S. advancement, and what American schools and the business community 
can and should be doing to reverse this trend and bolster American 
competitiveness.
    Some have suggested that we could improve our competitiveness in 
math and science fields by providing increased incentives to math and 
science graduates. With the average starting salary for engineering 
majors approximately $50,000, this is 66% more than the average for 
liberal arts majors and 43% more than the average for business 
administration majors. In addition, many high tech businesses have high 
skill jobs available but they cannot find enough workers here to fill 
their needs. Clearly, there are already ample incentives to attain 
degrees in math, science, and engineering.
    I believe the problem is more a ``pipeline'' issue. There are 
simply not enough students going through the K-12 system and the higher 
education system that are interested in science. And for those students 
that are interested in science careers, they must overcome a number of 
obstacles along their educational path.
    For example, according to the National Science Foundation, 46% of 
math teachers did not major or minor in math in college. How can we get 
students to be enthusiastic about math when math was not the main 
interest of the teacher?
    In addition, according to some studies, only half of the students 
who begin college to pursue math and science actually graduate with a 
degree in math or science within six years. Institutions of higher 
education can and should do more to recruit and retain these students.
    Lately, I have been reading The World is Flat, by Thomas Friedman, 
where he argues that technical innovations and investment in the 1990's 
made the world ``flat'' so that countries like China and India that 
were once marginalized can now compete with the United States on the 
global stage. Today, anyone with a computer and access to the internet 
can compete for business with anyone else around the world.
    I have also met with a number of business executives and leaders 
from high tech companies from my district and around the State of 
California who encouraged me to visit China or India to see the 
progress these countries were making to catch up with the United 
States. About a month and a half ago, three of my colleagues on this 
committee and I took a trip to China to do just that.
    We saw tall skyscrapers on land that was rice paddies just 15 years 
ago. We learned of the massive investment the Chinese were making in 
higher education, particularly in the math, science, and engineering 
fields.
    While the U.S. stills lead the world in scientific and 
technological innovation, we must continue to be adaptive and flexible 
to meet the challenges of today and of tomorrow.
    Our witnesses that are with us today will testify on what can be 
done at the K-12 level, what institutions of higher education can do to 
increase math and science graduation rates, and the problems that high 
tech companies are facing to fill the needs of their workforce.
    I especially look forward to hearing from Mr. Norm Augustine, the 
retired Chairman and CEO of Lockheed Martin Corporation. Lockheed 
Martin has a large research facility located in Palmdale, California, 
which I'm proud to represent.
    Thank you all for joining us today, and I look forward to today's 
discussion.
                                 ______
                                 

STATEMENT OF HON. DALE E. KILDEE, RANKING MEMBER, SUBCOMMITTEE 
ON 21st CENTURY COMPETITIVENESS, COMMITTEE ON EDUCATION AND THE 
                           WORKFORCE

    Mr. Kildee. Thank you very much, Mr. Chairman. I'm pleased 
to join my friend and my colleague, Chairman McKeon at today's 
hearings on the importance of math and science to our future 
competitiveness.
    There could not be a more important topic. I'm looking 
forward to the testimony of witnesses here this morning. You 
assembled a very, very good panel, Mr. Chairman. I thank you 
for that.
    Chairman McKeon. We have.
    Mr. Kildee. We thank you. America as a nation woke up when 
Sputnik was launched on October 4th, 1957. I was teaching high 
school that day. I remember it very, very well. This 
achievement by the Soviet Union made us reassess our position 
in math, science and technology. This event caused the United 
States to redouble its efforts in the space race and to 
maintain its place as a world economic power.
    The question for us today is clear. Do we need another 
Sputnik to make us realize the impact that math and science 
education will have on our future competitiveness as a nation? 
The problems here are clear and well documented. The percentage 
of college students seeking degrees in math, science and 
engineering continues to fall. While women and minorities have 
increased their participation in math, science and engineering, 
they are still proportionately underrepresented.
    The retirement of the baby boomers will leave a 
professional and technical labor market gap. Both the private 
and public sector will face problems if the pipeline for 
mathematicians, scientists and engineers is not widened. These 
problems are undeniable and certainly need our attention.
    The workforce must be knowledgeable and well schooled in 
mathematics, the sciences, engineering and technology. We will 
not be able to maintain our economic place in the world without 
sizable investment in human capital in the areas of math and 
science.
    Mr. Chairman, in closing, I hope this hearing energizes our 
colleagues to realize and understand the importance of math and 
science to our nation's economic advantages. Today's witnesses 
should spur our discussion not just of the problems we face, 
but of the solutions we can provide.
    And again, thank you, Mr. Chairman.
    [The prepared statement of Mr. Kildee follows:]

Statement of Hon. Dale E. Kildee, Ranking Member, Subcommittee on 21st 
   Century Competitiveness, Committee on Education and the Workforce

    Good morning, I am pleased to join my friend and colleague Chairman 
McKeon at today's hearing on the importance of math and science 
education to our future competitiveness. This could not be a more 
important topic. I am looking forward to the testimony of our witnesses 
today.
    America, as a nation, woke up went Sputnik was launched on October 
4, 1957. This achievement by the Soviet Union made us realize our 
shortcomings in math, science and technology. This event caused the 
United States to redouble its efforts in the space race and to maintain 
its place as a world economic superpower. The question for us today is 
do we need another Sputnik to make us realize the impact that math and 
science education will have on our future competitiveness as a nation.
    The problems here are clear and well documented. The percentage of 
college students seeking degrees in math, science and engineering 
continues to fall. While women and minorities have increased their 
participation in math, science and engineering, they are still 
proportionally underrepresented. The retirement of the baby boomers 
will leave a gap in professional technical labor market. Both the 
private and public sector will face problems if the pipeline for 
mathematicians, scientists and engineers is not widened. These problems 
are undeniable and need our attention.
    I know many talented teachers and college professors who are 
committed to ensuring that we have an educated workforce. This 
workforce must be knowledgeable and well schooled in mathematics, the 
sciences, engineering and technology. We will not be able to maintain 
our economic place in the world without sizable investment in human 
capital in the areas of math and science.
    Mr. Chairman, in closing, I hope this hearing energizes our 
colleagues to realize and understand the importance of math and science 
to nation's economic advantages. Today's witnesses should spur our 
discussion not just of the problems we face, but of the solutions we 
can provide. Thank you Mr. Chairman.
                                 ______
                                 
    Chairman McKeon. Thank you, Mr. Kildee. We have a very 
distinguished panel of witnesses before us, and I again thank 
you all for being here today.
    First we'll hear from Mr. Norm Augustine. Mr. Augustine is 
a retired chairman and CEO of the Lockheed Martin Corporation, 
very important in my district back home. I grew up in Tujunga, 
and Lockheed at that time was in Burbank. In fact during World 
War II, my aunt was, what did they call them, the riveter? 
Rosie the Riveter. My Aunt Lil was a riveter at Lockheed. And 
then when they moved the skunkworks out to Palmdale, that was 
great for our district.
    Though officially retired from the company, Mr. Augustine 
still serves as chairman of its Executive Committee. During his 
distinguished career, Mr. Augustine has served as Under 
Secretary of the Army, chairman of both the American Red Cross 
and the Boy Scouts of America. I'd like to thank you especially 
for that. My sons and sons-in-law are all Eagles, all except 
one. And I think the Boy Scouts do an outstanding job and 
should be commended every opportunity we get.
    He's been a faculty member of Princeton University. His 
experiences in the areas of engineering and technology place 
him a unique position to discuss the challenges this country 
faces in maintaining its competitiveness in math and science.
    Mr. Augustine is also a constituent of my friend from 
Maryland, Mr. Van Hollen. I understand the gentlemen would like 
to also add his welcome to Mr. Augustine at this time.
    Mr. Van Hollen. Thank you, Mr. Chairman, and let me first 
thank you and Mr. Kildee for putting together these very 
important hearings. I think this Committee will probably 
discuss no more important issue than maintaining our edge and 
math and science as part of maintaining our global 
competitiveness. In fact, I think the Nation probably will face 
very few issues of this importance.
    So I just wanted to add my welcome to you, Mr. Augustine. 
It's wonderful to have you as a constituent, and I want to 
thank you for all the leadership you provided in the State of 
Maryland, which was really one of the pioneers I think in 
looking at the questions of higher education and 
competitiveness. We've got a long way to go, but thanks to your 
work, we're headed in the right direction.
    I want to thank you for founding the Maryland Business 
Roundtable for Education and all your leadership there as well.
    Mr. Augustine. Thank you.
    Chairman McKeon. Next we'll hear from Dr. Thomas Magnanti. 
Dr. Magnanti has been a faculty member at the Massachusetts 
Institute of Technology, MIT, since 1971, and is currently the 
dean of the Institute's School of Engineering.
    During his career, Dr. Magnanti has served as a visiting 
scientist at Bell Laboratories and GTE Laboratories and as a 
member of the advisory boards of several prominent educational 
and research institutions.
    Dr. Magnanti has also been involved in several 
collaborative efforts between education and industry that have 
sought to engage students in math, science, engineering and 
technology disciplines. I was talking earlier with the doctor 
and mentioned that when we were in China, one of the leaders 
that we visited with over there, he was head of the Microsoft 
Research and Engineering Department, and he said he had gotten 
his Ph.D. at Carnegie Mellon. And he said the four top schools 
were MIT, Carnegie Mellon and then Berkeley and Stanford. And I 
said, you know, you forgot Cal Tech. Out in my part of 
California, Cal Tech, we kind of figure Cal Tech and MIT are, 
you know, right there. I guess we could have quite a 
discussion.
    I understand now Mr. Van Hollen would like to introduce our 
next witness on the panel today. He has two constituents.
    Mr. Van Hollen. Well, thank you, Mr. Chairman. I'm very 
fortunate to represent a district which, like all of us, has 
many people who are involved in important issues to our 
country.
    And I mentioned that Mr. Augustine had been the founder of 
the Maryland Business Roundtable for Education. I'm very 
pleased that we also have with us today June Streckfus, who is 
the current Executive Director of the Maryland Business 
Roundtable for Education. I want to thank her for joining us 
this morning.
    As I said, she is now the executive director of that 
organization which is playing a very active and effective role 
in promoting excellence in education in our state, and I am 
particularly looking forward to her discussion about their 
experience with Maryland's scholars in Frederick County. And I 
know you've seen some striking results through your work in 
Frederick County.
    Prior to joining the Roundtable, which was founded in 1992, 
Ms. Streckfus was the Director of Government and Education 
Affairs for Maryland Economic Growth Associates. She has been 
recognized by the Daily Record as one of Maryland's top 100 
women, and the 2002 Innovator of the Year.
    We're very pleased to have you this morning. And, Mr. 
Chairman, thank you for inviting these witnesses as part of a 
very distinguished panel.
    Chairman McKeon. And I yield to Ranking Member Kildee to 
introduce our final witness this morning.
    Mr. Kildee. Thank you, Mr. Chairman. It gives me great 
pleasure to introduce Dr. Nancy Songer, a Professor of Science 
Education at the School of Education at the great University of 
Michigan, where I and my two sons received degrees.
    Professor Songer's field of expertise centers on reformed-
based science education, particularly in urban settings, 
elementary and middle school science, and the development of 
learning environments which are sensitive to diversity and 
gender issues. She is the director of a project called Bio 
Kids. The mission of the Bio Kids project is to create 
innovative, inquiry-based K-12 science curricula that utilize 
current technologies for interactive study.
    Student teachers, parents and scientists can participate 
from classrooms, homes, after school programs or other 
educational settings. The program has been a major element in 
responding to the needs of students and staff alike in Detroit 
public schools.
    It gives me great pleasure today to have Dr. Songer before 
the Committee, and we welcome her testimony and attendance.
    And thank you, Mr. Chairman.
    Chairman McKeon. Thank you. Before you begin, I'd like to 
remind of those little lights in front of you. When--we've 
given you the magnanimous 5 minutes. And the light will go 
green. When you have a minute left to go is yellow and then 
when your time is up, it goes red. Don't worry too much about 
that. We just hold ourselves to that pretty tough standard.
    Mr. Augustine.

  STATEMENT OF NORMAN R. AUGUSTINE, RETIRED CHAIRMAN AND CEO, 
           LOCKHEED MARTIN CORPORATION, BETHESDA, MD

    Mr. Augustine. Well, thank you, Mr. Chairman and Members of 
the Committee. I should perhaps begin by noting that I'm here 
today representing myself and not any particular organization.
    I should probably also note that the issue at hand 
concerning education I view as a part of a much broader issue 
of America's competitiveness as a whole. I sought to address 
that broader issue in the written statement that I'd like to 
provide with the Committee's permission for the record.
    Chairman McKeon. It will be included, no objection.
    Mr. Augustine. Thank you. This morning I would like to 
touch on three points particularly germane to this hearing from 
that statement.
    The first of those points is that American companies are 
finding themselves more and more dependent upon science and 
technology for their ability to compete in the global 
marketplace for the very kinds of reasons you, Mr. Chairman, 
referred to. That ability to compete is of course what creates 
jobs in America, which in turn underpins our standard of 
living.
    There have been many studies that have shown that during 
the last half century, over half of the jobs created in America 
have been directly due to prior investments in the fields of 
science and technology, and that's probably not surprising when 
we think of companies like companies like Microsoft or Eli 
Lilly or Lockheed Martin. But it's also true to a surprising 
degree to many other companies. I would cite, for example, a 
consumer products company. The CEO, the recently retired CEO of 
Procter and Gamble has said that his company is principally an 
R&D firm.
    The second observation I would like to make is that any 
lead that a company or a country has in science and technology 
is inherently precarious. And the reason for that is the rapid 
change in the field of science and technology. For example, if 
you take dynamic random access memories, which are the building 
block of the modern electronics industry, a new generation of 
those appears every 30 months and has been doing so for many, 
many decades. Intel has said that over 90 percent of the sales 
it has today are from products that didn't exist a year ago.
    The third point I'd like to leave is that once a lead has 
been lost, it takes a very long time to regain it, if it's 
possible to regain at all. The reason for that is the long time 
it takes to educate particularly a researcher in science and 
technology. A student needs to decide in ninth grade whether or 
not he or she wishes to preserve the option to pursue a career 
in science and technology, and that's because of the 
hierarchical and integrated nature of a science and technology 
education. That means, for example, that the students today 
that are making that decision would be likely to receive a 
Ph.D. in these fields maybe in the year 2019.
    In the past, our companies have tried to offset this delay 
and these shortages by relying heavily on talent from other 
countries. And in fact, over half the graduates in engineering 
schools today with advance degrees are from foreign countries.
    That has problems that are arising that I'm sure you're 
familiar with. But I might also say for a company in the 
defense industry or the homeland security field, that's not an 
acceptable solution because of the requirement to have security 
clearances.
    I'd like to read for you very briefly one of the two 
conclusions from the Hart-Rudman Commission, a commission that 
the Congress established and it was my privilege to serve on. 
It was a commission on national security. This was one of its 
two conclusions: ``. . . the inadequacy of our system of 
research and education poses a greater threat to U.S. national 
security over the next century than any potential conventional 
war that we might imagine.''
    The question arises, what might we do? I've offered a 
number of recommendations in my written statement. Let me touch 
on a few things that I think are particularly important.
    We obviously need to strengthen our K-12 education, and I 
think that could best be done by bringing the free enterprise 
system to that educational system, to introduce competition, 
competition among schools, among administrators, among 
teachers, to pay teachers for performance and pay them in 
accordance with the very important role they play in preparing 
America's youth for prosperous lives, contributing lives.
    We need to encourage more women and minorities to enter the 
fields of science and technology. We very much need to permit 
subject matter experts to teach their fields in K-12 after 
passing a brief preparatory period in teaching skills.
    I believe that we need to initiate something that I've 
called the American Scholars Program whereby the government 
would award to perhaps a thousand of the highest scoring 
scholars in the fields of science and technology, including 
mathematics, on a standardized national examination, a full 
scholarship for their undergraduate work, and if they wish to 
continue in graduate work and excelled, to continue that 
funding. It would make a huge difference to the talent level in 
our country.
    And finally, I would mention that we need to take steps to 
make productive the entire career of a scientist or an 
engineer, because their careers, just like companies' strength 
in science and technology, obsolesces very quickly. That means 
we need to put more support and emphasis on the topic of 
continuing education.
    Well, thank you, Mr. Chairman, and I look forward to your 
questions.
    [The prepared statement of Mr. Augustine follows:]

 Statement of Norman R. Augustine, Retired Chairman and CEO, Lockheed 
                    Martin Corporation, Bethesda, MD

    Mr. Chairman and members of the Committee,
    Thank you for the opportunity to appear before you today. I should 
perhaps begin by noting that I am representing only myself and am here 
because I, like you, care deeply about the future of our nation. 
Further, I have three grandchildren who will live in the world we are 
in the process of creating.
    In addressing the future quality of life in America one cannot help 
but notice warnings of what appears to be an impending Perfect Storm. 
The elements which underlie this possibility are, first, the pervading 
importance of education and research in the fields of science and 
technology to America's standard of living, and the disrepair in which 
we find many of our efforts. Second, the precipitousness with which a 
lead in science and technology can be lost. Third, the prolonged period 
of time it takes to recover once a lead has in fact been lost, if 
indeed it can be regained at all. I would like today to briefly discuss 
each of these considerations.
    A number of studies have shown that over half the jobs created in 
America during the past half century were the direct consequence of 
earlier investments in science and technology. That is, the ability to 
provide jobs for our citizen's and support their standard of living can 
be seen to depend to a very substantial degree on our nation's 
competitiveness in science and technology. But modern science and 
technology do not respect geopolitical borders. We all know that if we 
buy a camera or television set there is a high probability it was built 
abroad. But this trend has not stopped with manufacturing. For example,
    <bullet>  A patient in a U.S. hospital today may well have their x-
ray interpreted by a doctor in India.
    <bullet>  Visitors to a company located a few yards from the White 
House are greeted by a receptionist in Pakistan whose image is seen on 
a flat-screen video display.
    <bullet>  A person in Wichita calling the help-line of a U.S. 
company is assisted by a technician in India.
    <bullet>  A patient undergoing surgery in an American hospital is 
operated on by a robot directed by a world-class surgeon seated in 
another part of the room; a surgeon who could one day just as easily be 
located in China.
    Turning to National Security, the Hart-Rudman Commission, on which 
it was my privilege to serve, stated in its final report that ``. . . 
the inadequacy of our system of research and education poses a greater 
threat to U.S. national security over the next quarter century than any 
potential conventional war that we might imagine.'' It is noteworthy 
that this was a principal finding of a panel established by the 
Congress to investigate national security; not research or education.
    In short, whether we are addressing the creation of jobs, the 
provision of homeland security, the supplying of energy, the delivery 
of health care, or almost any other important challenge confronting our 
society, much of the solution will have to be found through American 
preeminence in science and technology.
    Turning to the second consideration, the rapidity with which our 
scientific and technological seed-corn becomes obsolescent, it has been 
noted that the time between the introduction of entire new generations 
of dynamic random access memories, the building blocks of the modern 
electronics industry, is only about 30 months. Intel has said that 
nearly 90 percent of the products it sells today did not exist a year 
ago. The ``half-life'' of published research articles in scientific and 
technical fields, as measured by the frequency with which they are 
cited, is about two to five years depending on the field. Similarly, 
the subject matter reflected in university course catalogs in these 
fields ranges from three to ten years. Even consumer product companies, 
makers of such everyday items as soap, toothpaste and diapers, are 
critically dependent upon their prowess in research and development. 
The retired CEO of Procter and Gamble has described his firm as 
primarily an R&D company.
    Third, with regard to seeking to recover from any ill-advised 
attempt to under-invest in research and education, it takes a very long 
time to produce additional productive research scientists. A youth 
wishing to become a mathematician, scientist or engineer must decide in 
ninth grade to take courses which preserve the option to pursue a 
career in any of these fields. This is a consequence of the 
hierarchical and interdependent character of a science or technology 
education. Further, the ``leakage'' rate in the process of producing 
credentialed researchers is very high indeed. In the field of 
mathematics, for example, based on current trends one must begin with 
3,500 ninth-graders in 2005 to produce 300 freshmen qualified to pursue 
a degree in mathematics. Of these, about 10 will actually receive a 
bachelors degree in the field. Finally, one PhD in mathematics will 
emerge in about 2019.
    How well equipped is America to deal with these challenges? On the 
positive side, we have built what is generally recognized to be the 
world's finest higher education system, but it is noteworthy that over 
half the PhD's awarded in engineering in our universities are granted 
to foreign citizens. Until recently, many of these talented individuals 
remained in America and became major contributors to our society, but 
more recently fewer foreign students are enrolling in America's 
universities and of those who do more are returning home once their 
academic work is completed. Further, only 20 percent of bachelor's 
degrees in engineering are received by women; still fewer by 
minorities, with the consequence that this major potential source of 
talent goes underutilized.
    Even in this age of burgeoning technology the number of graduates 
with bachelor's degrees in the physical sciences, mathematics and 
engineering has been declining for two decades. China now graduates 
about 200,000 engineers a year; India and Japan, 100,000 each; the 
United States, 50,000. In the U.S., five percent of all bachelors 
degrees awarded are in engineering. In China, the corresponding figure 
is 40 percent. In Singapore, the fraction is still higher.
    A few years ago, when America did not finish in its traditional 
first-place in Olympic basketball the uproar could be heard throughout 
the nation. How should American's feel about being in 15th place out of 
16 nations in the advanced math, based on international examinations of 
high school seniors? Or about finishing 16th out of 16 in science?
    But talent is only part of the issue. The other part concerns 
investing in our universities the funds needed to benefit from that 
talent. Our government has done a superb job in recent years of 
strengthening research in the health sciences, but somehow over the 
last several decades the physical sciences, math and engineering have 
been neglected. It too often goes unrecognized that much of the recent 
progress in the health sciences, has been underpinned by earlier 
achievements in mathematics, the physical sciences and engineering. 
Deciphering the human genome, for example, was heavily dependent upon 
advancements in robotics and computers. The development of modern 
imaging machines was made possible to a great extent by advancements in 
engineering and mathematics.
    I recently had the occasion to visit factories in Vietnam where the 
wage of the lowest-level assembly workers was about 25 cents an hour. 
Factories that had moved from the U.S. to Mexico a decade ago are now 
moving from Mexico to Asia. But the trend does not end with factory 
workers: today one can hire eleven well-educated engineers in India for 
the price of one in America. Further, the exodus that began with 
assembly workers and then spread to software designers is now moving to 
the most advanced research laboratories. The U.S. for the first time 
has a negative trade balance even in high-tech products, and the jobs 
associated therewith are fast becoming one of our larger exports. Let 
me emphasize that this not a partisan issue--it is the result of a 
decades-long trend that will take decades to fully correct.
    What, then, must America do? There is but one answer: We must 
compete. And we must do so while suffering a disadvantage in the cost 
of labor. We must be more innovative than ever before; we must have a 
vastly better K-12 educational system then we now have; we must 
unburden our companies from excessive regulation, litigation and 
health-care costs; we must significantly increase our federal 
investment in research.
    I would offer the following eight recommendations as a starting 
point:
    <bullet>  Bring the Free Enterprise System to K-12 education in 
America. This system, along with Democracy, is what has made America 
great and it can make our public schools great once again. We must 
introduce competition among schools, administrators and teachers. We 
must lengthen the school year. We must pay teachers for performance and 
pay them in accordance with their important contribution to society of 
preparing the nation's youth for productive, rewarding lives. We must 
establish standards, standards that have consequences. This works in 
our companies and in our universities and it will work for K-12.
    <bullet>  Provide K-12 teaching credentials to subject-matter 
experts who successfully complete a brief program to acquire and 
demonstrate fundamental teaching skills. There is a certain irony that 
upon retiring from my own career in engineering and business I was 
permitted to teach in the Engineering School at Princeton but would not 
have been permitted to teach ninth-grade math or science in most of our 
nation's public schools.
    <bullet>  Initiate an America's Scholars Program which will fully 
fund the undergraduate and graduate education in the physical sciences, 
math, biosciences or engineering of the outstanding 1,000 high school 
seniors in the nation each year who score the highest on a standardized 
examination and maintain that high degree of excellence during the 
remainder of their education.
    <bullet>  Double in five years federal spending on basic research 
in mathematics, the physical sciences and engineering. It should be 
noted that the steady-state cost of doing this is, in the overall scale 
of things, modest, equaling the amount by which health care costs in 
America increase every two months.
    <bullet>  Provide non-citizen graduates of America's universities 
in the fields of science and technology special consideration for 
visas, work permits and, especially, citizenship. Offer expedited entry 
processing to foreign-born scientists and engineers who seek to work in 
America.
    <bullet>  Provide a tax credit to corporations that fund basic 
research in science and technology at our nation's universities.
    <bullet>  Provide tax incentives to companies that fund continuing 
education for their employees in science and technology. This is 
particularly important if members of the science and technology 
workforce are to remain productive throughout their entire careers.
    <bullet>  Revise the capital gains tax law such that, in a manner 
neutral to overall tax generation, gains on assets held for less than 
six months are taxed at a very high rate, assets held ten years or more 
are untaxed, and those in-between are taxed in a continuous fashion 
between these limits.
    Finally, and most difficult to accomplish, America must change its 
attitude toward careers in science, technology and teaching. Probably 
everyone in this room knows who Allan Iverson and Shaquille O Neill 
are. But how many know who Bob Noyce and Jack Kilby are? The latter two 
arguably affected the lives of Americans in a manner matched by only a 
handful or so of people who lived in the previous century.
    We are living in a time of intense competition, a time in which the 
quality of life in America will be severely tested. In this regard, I 
would like to close with a poem by Richard Hodgetts that I used to 
quote to my colleagues at Lockheed Martin who were chosen to represent 
our company in intense business competitions. It goes as follows:
        Every morning in Africa a gazelle wakes up. It knows it must 
        outrun the fastest lion or it will be killed.
        Every morning in Africa a lion wakes up. It knows it must 
        outrun the slowest gazelle or it will starve.
        It doesn't matter whether you're a lion or a gazelle, when the 
        sun comes up, you'd better be running.
    Thank you.
    ------------
    Norman R. Augustine is the retired Chairman and CEO of the Lockheed 
Martin Corporation and a former Under Secretary of the Army. He serves 
on the Boards of Black and Decker, ConocoPhillips and Procter & Gamble 
and has been a trustee of MIT and Princeton and is currently a trustee 
of Johns Hopkins. He was a founder of the Maryland Business Roundtable 
for Education, chaired the (National) Business Roundtable's Education 
Initiative and has been Chairman of the National Academy of 
Engineering. He has served as a Lecturer with the Rank of Professor at 
Princeton and is a recipient of the National Medal of Technology. He 
holds eighteen honorary degrees.
                                 ______
                                 
    Chairman McKeon. Thank you very much. Dr. Magnanti.

 STATEMENT OF THOMAS L. MAGNANTI, DEAN, SCHOOL OF ENGINEERING, 
      MASSACHUSETTS INSTITUTE OF TECHNOLOGY, CAMBRIDGE, MA

    Dr. Magnanti. Thank you, Mr. Chairman, Members of the 
Committee. It's a pleasure to be with you this morning. I also 
have in my testimony addressed I think a somewhat broader set 
of issues than the purview of this Committee and hope that you 
might be willing to enter those into the record.
    I'm going to speak today about engineering, math and 
science, but I'm going to be using the word ``engineering'' in 
some broad sense to represent all three of those through this. 
And I'd like to make four points if I could today.
    The first I think is rather obvious to all of us. 
Engineering is essential to our nation's well being and 
prosperity. Imagine, if you will, America in 1900. America 
without the pervasive availability of electricity and purified 
water; without mass communication and transportation; 
aeronautics and flight; without air conditioning and 
refrigeration; without contemporary health technologies; 
without agriculture mechanization; without computers, 
electronics and wireless communication; and without petroleum 
and petroleum technologies. Engineering has made a difference 
to our lives.
    Over the last 60 years, as Mr. Augustine has indicated, 
economists tell us that over half of our economic growth has 
been due to technology. And closer to home, a recent study done 
in the Boston area indicates that the eight Boston research 
universities provide $7.4 billion of a boost to the local 
economy. $7.4 billion of boost to the local economy.
    My second point, engineering practice and engineering 
content is changing. And again, this will echo some of the 
Chairman's earlier remarks. I think one indication of this is 
MIT's new president, Susan Hockfield, who has just joined us 
several months ago, the first woman president of MIT and the 
first life scientist to lead the Institute. I think this 
signals something about the changing demographics of our 
university and something about the changing content of our 
universities as well.
    But we see in engineering practice profound changes. One is 
globalization, as indicated by our Chairman, in terms of 
manufacturing and research and development being done offshore 
as well as in the U.S.
    We see employment shifts from larger corporations to 
smaller companies and more of a focus on entrepreneurship.
    We see the United States becoming increasingly a service 
economy, with 70 to 80 percent of our economic output being in 
the service industries.
    And we see information technology and biology adding to the 
traditional make/build work of engineering in other substantial 
ways. In fact, much of what's driving engineering these days is 
driven by the life sciences and driven by the ultra small--
micro and nano technologies.
    A few sobering statistics. The U.S. graduates 75 percent as 
many engineering and science degrees per million population 
than it did in 1985. So as a percentage of the population, 75 
percent.
    India and China graduate three times as many bachelor's 
engineering degrees; in Asia, eight times as many engineering 
degrees as the United States. Sixty percent of all bachelor's 
degrees in China are in science and engineering. Only 30 
percent in the United States. And the U.S. graduates 50 percent 
more MBAs than it does BS degrees in engineering.
    You'll see from these comments that the practice and 
content of engineering is indeed changing. I think you also see 
some rather troubling and disturbing statistics.
    My third point, engineering education in America needs to 
change. We need improvements in undergraduate education in 
teaching and learning. We need a better use of technology. We 
at MIT, for example, have had a program with Microsoft for the 
past 5 years called iCampus to try to bring technologies to 
bear upon the educational enterprise.
    We need more kinds of active learning, learning that will 
be exciting to our students. And again, we see this both at MIT 
and elsewhere in the Nation with more design contests and 
involvement in hands-on learning. And we need a broadening of 
engineering education, not only to educate our students in the 
underlying technologies, but also on aspects of management, 
business and some of the social and political attributes that 
we deal with.
    To echo comments that have already been made, we also need 
to attract and support the best and the brightest. We've all 
heard about the pipeline issue, and I won't try to retread all 
the statistics there, but we need clearly more women and 
minorities and attracting them to engineering and science.
    We need to promote in K-12 education more interest in 
science and engineering. I'll come back to that later. And we 
need more feeder programs that are going to feed both women and 
minorities into our educational enterprise. For example, we 
have a 30-year-old program at MIT which attracts about 80 
students a year and sends them to the Stanfords and Berkeleys 
and Cal Techs of the world for their education.
    We also need engineers as leaders. About 15 years ago when 
the national faced a manufacturing crisis, I was involved in 
starting a program at MIT called the Leaders for Manufacturing 
Program. And that program is helping us to infuse more leaders 
into manufacturing in the nation. Perhaps the best example of 
an engineering leader is sitting to my right, Norm Augustine. 
But through that program we graduated Tim Copes and Pat 
Shanahan, VP of Technical Services and Rotocraft Systems at 
Boeing; Liz Altman, who is the VP and Director of Business 
Development at Motorola's Personal Communications systems; and 
Jeff Wilke, the Senior Vice President and head of all 
operations at Amazon.com. So people have gone into both 
traditional industries and new economy industries.
    And we need a meritocracy and an openness to our 
environment. I myself am the grandson of an immigrant laborer 
and a father who worked loading rail cars at night so that he 
could attend college during the day. Our Associate Dean, Dick 
Yue, his family escaped from China many years ago, and his 
life's dream was to come to MIT and to study engineering and 
science, as did his two brothers.
    If you just look at our Engineering Council at MIT, our 14 
leaders in terms of our Engineering Council, only six of those 
14 leaders are U.S.-born. Eight are foreign-born. And if you 
look at MIT's eleven Nobel Laureates, four are foreign-born. 
America profits enormously providing opportunities to all our 
citizens and to a flow of talent into the country.
    And one last item is, we have it at MIT, is our 
OpenCourseWare Initiative. This is a program for taking all of 
our courses at MIT, putting them on the web, providing them to 
the world for free. We now have 1,100 of our 1,800 courses 
online. There's 20,000 unique visitors every day.
    As examples, the chairman of a high school science 
department in Toms River, New Jersey, uses OpenCourseWare 
material in electricity and magnetism to excite his students.
    Ken Magnum, a high school computer science teacher in 
Chandler, Arizona uses OCW courses to educate himself and his 
students and to support his after high school Artificial 
Intelligence Club.
    In Colorado, Dan Stivers uses math courses in OCW to 
educate his 10- and 12-year-old daughters. There are hundreds 
of stories like this.
    I will conclude with several recommendations. The first is 
to create an engineering curriculum in K-12 to complement this 
math and science curriculum and bring the excitement and thrill 
of actually building and creating engineering artifacts to the 
world of K-12 education, using tools like OpenCourseWare.
    Second, develop more active learning approaches for 
engineering and science as well as an exposure to engineering 
practice to broaden engineering education. Here I see a role 
for both the Federal and local governments, industry and 
universities.
    Third, create and support professional graduate programs in 
engineering as an analog to those of business, law and 
medicine.
    And finally, two broader recommendations that deal with the 
ecosystem more broadly and not necessarily the content of 
today's activities.
    My fourth recommendation, create a National Innovation 
Education Act, an NDEA for our times. We talked about Sputnik 
attracting us to students. To provide an NDEA that would 
provide portable graduate fellowships.
    And finally, develop laws and policies to attract and 
retain international talent. For example, provide automatic 
green cards to all foreign-born Ph.D. graduates in the U.S.
    Thank you for providing me this opportunity to share some 
thoughts with you, Mr. Chairman and Members of the Committee.
    [The prepared statement of Dr. Magnanti follows:]

     Statement of Thomas L. Magnanti, Dean, School of Engineering, 
          Massachusetts Institute of Technology, Cambridge, MA

    Thank you for the opportunity to speak to you on a topic that is so 
important to all of us. By way of background, I am the Dean of 
Engineering at MIT where I have been a faculty member for 34 years. For 
most of my career at MIT, I have been a member of the Sloan School of 
Management, and many of my activities before becoming Dean involved 
developing professional master's programs at the interface of 
engineering and management. Since becoming Dean six years ago, I have 
focused much of my attention on improving undergraduate education and 
diversity in the School. I have also, in recent years, become 
increasingly concerned by the tremendous forces of change in 
technology, in society, and in the world, and the impact, challenges, 
and opportunities these present to engineering, to education, and to 
our nation's leadership and competitiveness.
    I'd like to cover four areas today:
    1.  Reemphasize the significance of engineering to the nation and 
to the world;
    2.  Outline some of today's challenges and how engineering and 
science education are changing;
    3.  Suggest some areas in which engineering and science education 
need to change; and
    4.  Offer some recommendations.
The significance of engineering to the nation and to the world
    Less than two weeks ago, we inaugurated a new president at MIT, Dr. 
Susan Hockfield, and I would like to borrow the words she used to 
describe MIT's values as a description for those of engineering 
generally. She listed them as rigor; implacable curiosity; disciplined 
creativity; an appetite for good, old-fashioned hard work; and a 
passionate, enthusiastic, can-do, hands-on, fix-it-now attitude.
    Keeping that description in mind, I would ask you to imagine a 
world without the fruits of engineering: a world without the pervasive 
availability of electricity and purified water; without mass 
communication and transportation; aeronautics and flight; without air-
conditioning and refrigeration; without contemporary health 
technologies; without agriculture mechanization; without computers, 
electronics and wireless communication; and without petroleum and 
petrochemical technology. The industrialized world at the turn of the 
20th century was just such a world. By creating, developing, 
organizing, and managing complex technologies and products, the 
engineers of the last hundred years shaped our nation and the world 
\1\, altering the essential fabric of society and dramatically 
improving the quality of life. In purely economic terms, during the 
last 60 years, over half of the growth of the U.S. economy has been due 
to technological innovation. Our universities have played a major role 
in this development. In the year 2000 alone, Boston's eight research 
universities provided a $7.4B annual boost to the regional economy \2\. 
Silicon Valley and the Research Triangle in North Carolina provide 
other powerful examples of how universities impact the regional and the 
national economies.
---------------------------------------------------------------------------
    \1\ The U.S. National Academy of Engineering's list of ``Greatest 
Engineering Achievements of the 20th Century.''
    \2\ ``Engines of Economic Growth: The Economic Impact of Boston's 
Eight Research Universities on the Metropolitan Boston Area,'' March 
2004
---------------------------------------------------------------------------
    As we face some of the most difficult challenges of our day in the 
physical, economic, human, political, legal, and cultural realms, we 
will increasingly depend on engineering to provide the tools and the 
solutions; indeed to help ensure the continual progress, health, and 
prosperity of our country in the 21st century.
The rapidly changing environment of engineering and the challenges we 
        face today
    Engineering in the 21st century faces an environment that is very 
different from even a decade ago. The practice of engineering is 
changing: with globalization of manufacturing and research and 
development; employment shifts from large to smaller entrepreneurial 
firms and to non-traditional, less technical engineering work 
(management/finance/policy); movement to a knowledge-based U.S. 
``service'' economy; diminishing half-life of engineering knowledge in 
many fields; and introduction of new interdisciplinary fields as well 
as the growing impact of information technology and biology on the 
traditional make/build work of engineering.
    In research, engineering is poised to bear the fruits of 
revolutionary developments in the life sciences and the ultra small 
(micro- and nano-technology) and to benefit from continuous but 
sometimes disruptive advances in information technology. Emerging 
opportunities often cross (and blur) traditional disciplines, and flat 
government and industry funding for science and engineering, as well as 
the increased cost of space and facilities, are stressing the 
university system.
    To develop engineers prepared to address today's challenges, 
engineering education faces major dilemmas. As the world becomes 
increasingly technologically driven, students need to be more deeply 
grounded in underlying science, mathematics, and engineering 
disciplines and require greater depth in their chosen field of 
expertise. Simultaneously, society has a strong need for engineer/
leaders and engineer/entrepreneurs who have a broad understanding of 
the context of engineering and business, and are well grounded in 
teamwork, organizations, and leadership. Concurrent with increased 
demands and rapid, technological changes, this period is also marked by 
a limited net resource growth.
    Longer-term trends and outlook relative to maintaining our nation's 
leadership in engineering are ominous. For 20 years, the U.S. share of 
high tech exports has declined. While the demand for workers highly 
trained in science and engineering has continued to increase, in terms 
of engineering bachelor's degrees per million population, we grant only 
75% as many degrees as a country as we did in 1985. Today, India and 
China graduate three times, and Asian countries altogether eight times, 
as many bachelor's degrees in engineering than the U.S. While 60% of 
all bachelor's degrees in China today are in science and engineering, 
only about 30% of those in the US are. In fact, as a nation, we 
graduate 50% more MBA's than SB's in engineering.
    Recognizing the tremendous challenges and opportunities, leading 
universities have made significant investments in engineering. Harvard 
and Princeton announced major financial commitments to engineering; 
Stanford is investing heavily in a new Engineering and Science Quad; 
and universities such as UCSD and Purdue are adding large numbers of 
new engineering faculty and investing in high tech infrastructure. Over 
the last five years, MIT Engineering has created two new divisions, in 
Engineering Systems and Biological Engineering, with close to 50 
faculty members. We have just completed a major new complex, the Stata 
Center, which houses the Computer Science and Artificial Intelligence 
Laboratory, the Laboratory for Information Decision Systems, and the 
Department of Linguistics and Philosophy. Throughout MIT's campus, 
there is more excitement about education innovations today than any 
time in the 34 years I have been at MIT. And yet, what we have done is 
only a tiny fraction of what we need to do meet the many challenges.
Engineering education in 21st century America needs to change
    Because the world is increasingly technically dominated, we need 
all the engineering talent we can get, not only as individuals in 
engineering professions, but also as technology conversant decision-
makers and leaders in all spheres and echelons of society \3\.
---------------------------------------------------------------------------
    \3\ A recent letter from an MIT alumna from San Antonio provides an 
illustration of how MIT-educated technologists are impacting her local 
community outside of their own careers: one alumnus is the architect of 
the revitalization of the vocational/workforce programs in local high 
schools; another graduate is active in 21st century career track 
training, and distance learning to reach the huge sprawl of San 
Antonio; a graduate in Materials Science and Engineering heads the 
Education Committee of the San Antonio Manufacturers Association which 
is about to graduate the first high school seniors from the 
Manufacturing Technology Academy there; a young alumnus is 
enthusiastically working with the Brownsville community to help develop 
a research/incubator facility to help that community grow beyond the 
maquiladoras as an economic base.
---------------------------------------------------------------------------
            Maintaining engineering as a meritocracy:
    Engineering has always been a meritocracy, perhaps the ultimate 
meritocracy, providing a road to upward mobility. I myself am the 
grandson of an emigrant laborer and the son of a father who loaded rail 
cars at night to support his young family while attending classes 
during the day to be the first in his family to attend college. Our 
Associate Dean of Engineering, Dick Yue, provides another example. 
Dick's family escaped Communist China as refugees. Eventually all three 
boys in his family came to MIT, earning multiple undergraduate and 
advanced degrees in engineering. (Dick's sister went through Wellesley 
and Yale and is now a surgeon in Seattle.) We need to ensure that 
engineering, mathematics, and science education continues to provide 
opportunities for people like Dick and me and for all members of our 
society. As President Hockfield said in her inaugural address, it 
doesn't matter where you come from, what you look like, who your 
parents are, or how much money you have, the only thing that matters is 
whether you can do the work. To be the best we can be, the diversity of 
the engineering workforce and leadership of the engineering profession 
must grow to match the growing racial, ethnic, and cultural diversity 
of the United States. We need to attract people of talent and high 
capability broadly, and especially more underrepresented minorities and 
women, to science and engineering, drawing from all segments of 
society, independent of gender, race, and family background.
    While more women and underrepresented minorities have entered 
science and engineering programs in recent years, concerning numbers of 
them drop out or switch out before graduation, and the total number of 
degrees granted to them are not nearly commensurate with population 
demographics. The situation at the graduate level is even more 
disturbing. The PCAST 2004 Report noted the worrying levels of 
``pipeline leakage'' among women and underrepresented minority 
students. Much smaller percentages of these student groups continue on 
to complete science and engineering graduate degrees, leaving 
underdeveloped an important segment of the U.S. talent pool.\4\
---------------------------------------------------------------------------
    \4\ At the doctorate level, women receive only 10-12% of 
engineering degrees awarded nationally, African Americans 2% and 
Hispanics 4%. (National Science Foundation WebCASPAR database, NSF 
Survey of Earned Doctorates/Doctorate Records File, 2002 numbers.)
---------------------------------------------------------------------------
    A most important factor in this context is the high cost of science 
and engineering education to the student and to the university. We do 
not want to lose the talents of some of our best and brightest citizens 
because they cannot afford a college education. The implications can be 
dramatic. In a recent program to encourage underrepresented minority 
student applications to graduate school, students listed financial 
support as a primary concern in the decision to apply to graduate 
school.\5\
---------------------------------------------------------------------------
    \5\ MIT Converge Program, participant survey, 2004.
---------------------------------------------------------------------------
            Improvements in undergraduate teaching and learning:
    While retaining a strong foundation in the fundamentals, science 
and engineering education needs to be more exciting and provide more 
hands on experience and context. MIT, which was a member of the ECSEL 
coalition, has worked actively to improve teaching and learning in our 
science and engineering programs. MIT's iCampus project has focused on 
the development of educational technology systems for science and 
engineering education. MIT's new Undergraduate Practice Opportunities 
Program enhances the development of professional ``soft'' skills our 
students will need in engineering practice, within a curricular context 
of real world case studies and active learning. Across engineering 
departments at MIT and nationally, inclusion of engineering design 
experiences using real world case studies and the use of active 
learning pedagogies have improved the undergraduate educational 
experience. The momentum for curriculum reform to address teaching and 
learning and real world practice is strong. Yet more could be done.
            Providing engineering support and feeder programs:
    Beyond making changes to the undergraduate curriculum, institutions 
can and have done more to support students who enter science and 
engineering programs to complete them. Most institutions now offer 
counseling, tutoring, and mentoring programs for undergraduates. Others 
have developed communities of learners to provide support networks for 
students. One example at MIT is its 30-year-old Minority Introduction 
to Engineering Entrepreneurship and Science (MITE2S) pre-college 
preparatory program.
    Finally, more should be done in our K-12 to promote interest and 
motivation in science and engineering. Recent education research has 
highlighted the importance of a positive classroom learning environment 
and active learning methods for improving K-12 student academic 
achievement and motivation. Engineering would be a wonderful context 
for such active learning and a great motivator not only for technology, 
but also science and math.
            Professional master's level education programs:
    Graduate programs that intertwine technical education with 
professional practice improve graduates' ability to productively 
contribute as members of the U.S. technology labor force and to 
participate in global technology businesses and research. Such programs 
could also address the ``pipeline leakage.'' As noted by the PCAST 
Report (June 2004), the problematic trends could be stemmed if new 
graduate programs could capture these students'' interests and more 
closely meet their career plans.
    MIT has been a leader in developing professional engineering 
degrees to meet industry needs, including its Leaders for Manufacturing 
(LFM) and System Design and Management Programs, exemplars that unite 
technical and management education with professional real world content 
and experiences. LFM graduates have become leaders in U.S. technology 
based companies, ranging from mature industries (such as Tim Copes and 
Patrick Shanahan, Vice President, Technical Services of Boeing 
Commercial Aviation Services, and Vice President and General Manager of 
Boeing Rotocraft Systems; and Liz Altman, Vice President and Director 
for Business Development of Motorala's Personal Communications Sector) 
and new economy companies (Jeff Wilke, Senior Vice-President at 
Amazon.com).
            Openness:
    In engineering and science, we need to sustain an environment of 
openness to productive collaborations across disciplines and across 
institutions and organizations in the public and private sectors. We 
also need to maintain an intellectual openness to the flow of 
international students and scholars who contribute so much to our 
universities and economy. As examples close to home: (a) of the 11 
living MIT faculty who have been awarded the Nobel Prize (8 current and 
3 emeritus), 4 were born outside the United States \6\; (b) I chair the 
Engineering Council at MIT, an advisory/governance body made up of 
leaders of our Engineering departments and divisions. Of the 14 
members, all but 6 are foreign born; (c) among MIT Engineering faculty 
40 and under, 50% are foreign born, while that percentage is only 28% 
for faculty over 60. Nationally, 8% of bachelor's degrees, 46% of 
master's degrees, and 55% of doctoral degrees in engineering are now 
granted to non-US students. As the economies and higher educational 
institutions of these non-US countries develop, there is a need for us 
to continue to attract and retain this critical talent flow.
---------------------------------------------------------------------------
    \6\ Ketterle (Germany), Khorana (India), Molina (Mexico), and 
Tonegawa (Japan)
---------------------------------------------------------------------------
    Openness is also a powerful way to raise the quality of education 
in our country at all levels. In April 2001, MIT announced that it 
would make all the course materials used in the teaching of its 
undergraduate and graduate subjects available on the World Wide Web 
free of charge, to any user anywhere. Four years later, this MIT 
OpenCourseWare project has put online 1,100 out of an eventual 1,800 
courses. The OCW materials attract more than 20,000 unique visitors 
each day. Among these are self-learners, educators, and students at all 
levels: the chairman of a high school science department in Toms River, 
New Jersey, now utilizes OCW materials, and the video lectures of MIT 
Professor Walter Lewin about electricity and magnetism, to get his 
students excited about physics. Kenn Magnum, a high school computer 
science teacher in Chandler, Arizona, has utilized materials from 
several OCW computer science courses to educate himself and his 
students. With more than 100 course offerings from the MIT Department 
of Electrical Engineering and Computer Science, Magnum sees MIT OCW as 
an invaluable professional development tool. And he is referring 
students in his after-school Artificial Intelligence Club to OCW 
courses on Artificial Intelligence and Electric Power Systems. In 
Colorado, Dan Stivers, the father of 10- and 12-year-old daughters, is 
using the lectures and course materials of noted MIT mathematics 
professor Gilbert Strang to teach his daughters. These are just a few 
examples of hundreds of stories from around the U.S. (and the world) 
about the impact OCW is having.
Recommendations
    I have spoken about the areas in which engineering and science 
education need to change. Let me now offer a few recommendations for 
comprehensive approaches that could go a long way in addressing these 
needed changes and ensure our nation's continuing leadership, 
prosperity, and security:
    1.  Create a National Innovation Education Act, including an ``NDEA 
for our times'' with government supported portable graduate fellowships 
for students in math, science, and engineering \7\.
---------------------------------------------------------------------------
    \7\ ,\8\ These recommendations have been embraced by leaders from 
industry and the academy (see the December 2004 Council on 
Competitiveness report, ``Innovate America'').
---------------------------------------------------------------------------
    2.  Develop laws and policies to attract and retain international 
talent. To harvest our national investments, we should provide every 
foreign born Ph.D. graduate in the US in science and engineering with 
an automatic green card\8\.
    3.  Create an engineering curriculum in K-12 to complement, 
enhance, and enrich the curriculum in math and science. Let's bring 
mathematics and science and the thrill of teamwork and technology to 
life by making engineering part of the K-12 curriculum. Promote 
connections between K-12 communities and top science/engineering 
universities through projects such as OpenCourseWare.
    4.  Develop more active learning approaches in engineering and 
science as well as exposure to engineering practice to broaden 
engineering education, with the development of such educational 
innovations funded by government, in partnership with industry.
    5.  Create and support of professional graduate programs in 
engineering leadership, as an analog of professional programs in 
business, law, and medicine.
    Thank you for the opportunity to meet with you today and thank you 
for all you are doing to enhance mathematics, science, and engineering 
education and in doing so to contribute to the nation's well being.
                                 ______
                                 
    Chairman McKeon. Thank you very much. Ms. Streckfus.

 STATEMENT OF JUNE E. STRECKFUS, EXECUTIVE DIRECTOR, MARYLAND 
        BUSINESS ROUNDTABLE FOR EDUCATION, BALTIMORE, MD

    Ms. Streckfus. Thank you, Mr. Chairman, Members of the 
Committee. I'm June Streckfus, Executive Director of the 
Maryland Business Roundtable for Education. And as you heard, 
it was created by Norm Augustine in 1992, and it takes time to 
get results, but we're starting to see some really wonderful 
results occurring in our state.
    Ed Mitchell was our second chair, of Pepco and Chip Mason 
is our current chair, of Legg Mason, so we've had strong 
business leadership to stay the course and these business 
leaders had a long-term commitment to support education reform 
in Maryland, but with a strong focus on making sure that 
student performance was improving. We believe that we work at 
the intersection of academic expectations, economic success, 
and a thriving workforce.
    We were founded based on the nine principles of the 
National Business Roundtable, and at the core of that were 
standards, assessment and accountability, and those words are 
very familiar now to this Committee. And we now have really 
wrapped our arms around No Child Left Behind in Maryland and 
are working to find ways to ensure that it's implemented in 
every school and for every child in our state.
    We have a widespread commitment that includes K-12, 
prenatal-5, which is housed with the Maryland Business 
Roundtable, a nonprofit group, and higher ed and the business 
community. Our focus is to make sure that all kids in Maryland 
are prepared for a future and a wonderful future for 
themselves. But our problem is that we have 1.4 million in the 
workforce in Maryland. Thirty-two percent, particularly like at 
NASA and Northrop Grumman and Lockheed Martin, are boomers, and 
the desperation from those three alone and their support for 
the for the Maryland Business Roundtable is overwhelming.
    They'll be beginning to feel the effect of that as early as 
2006, and we're really at functional full employment in 
Maryland for 2 years now, but we have 140,000 open jobs and 
130,000 unemployed. And 60 percent of our corporations are 
prevented from upgrading technologically by low educational and 
technical skill levels of our workers.
    So what we've put in place in Maryland is a more rigorous 
high school curriculum with new high school assessments. And we 
have just passed, students entering in 2005, the fall of 2005, 
will be required to pass the tests to get their diploma. So 
we're beginning to feel that rub.
    One half of the students in Maryland hit the mark in 
English, math and science this past year. So we looked at what 
was business uniquely positioned to do in this process, and we 
created a campaign in 1999, and we had been working on a lot of 
policy up to that point, but we created an on-the-ground 
campaign called Achievement Counts.
    At the core now of that is the Maryland Scholars Program. 
We were funded 2 years ago as one of the first five states in 
the country to put that program in place, and we are part of 
the national network of 15 states. The Scholars program is a 
step-by-step pathway for achieving future success, because we 
want all kids, not just a few, to complete that course of 
study.
    As you now, the single most significant determiner of 
success in college and the workplace is the quality and the 
intensity of the coursework. It's a very prescriptive program. 
It's primarily, and most of our districts say Scholars is for 
Maryland a math and science program, because we're requiring 
math through Algebra II. Our state requirement is through 
Algebra I.
    We are encouraging that all students take Algebra I by 
middle school preferably, but by ninth grade. That Algebra II 
is expected of all of our Scholars, because we know it's a 
benchmark course for highly paid jobs. McCormick Spice, for 
instance, just put in a new math test for their entry level 
people who are high school graduates, and a big chunk of that 
is Algebra II.
    So when we do focus groups with students, they say--we ask 
them what they want out of life, and they want a job with 
benefits. When I was in ninth grade, I really didn't know what 
a benefit was. But they're hearing from their parents that if 
they take a day off, they can't go on that trip or they can't 
do something because they aren't getting pay for that day, or 
they don't have health care benefits and they can't take them 
to the doctor.
    So, benefits is very important. So that's our big pitch 
with our campaign. If you want a job with benefits, if you want 
a job that will pay well, you're going to have to complete a 
course of study that will allow you to get those jobs. And then 
the other basis for the Scholars program are three lab sciences 
completed in high school: Biology, chemistry and physics 
preferred.
    We have a speakers bureau of 2,000 businesspeople who speak 
to the students at the beginning of ninth grade, letting them 
know that all 4 years matter, that just getting by isn't good 
enough, and that we talked to 73 percent of the students in 
Maryland last year in ninth grade, and our board told us that 
this year we need to get to 100 percent because of the urgency 
that they feel.
    We answer the questions for kids, why should I care? What's 
in it for me? And why should I work hard? And to get to another 
issue that this Committee deals with, when we ask them what's 
the most important factor that limits their thinking about the 
future and about college, and it is still scholarship. And the 
Pell Grant link, the increase of Pell Grants for the Scholars 
is a very important step to help kids realize that they can get 
there and they can do it.
    We are sending strong messages to kids early on that we 
link for them achievement in school to success in life. We 
deliver it early, often and by multiple influencers. We have a 
teen magazine that one of our--our Daily Record magazine works 
with us to produce 90,000 of them for distribution. We've just 
created a teen website, ``be what I want to be,'' that let's 
kids know what workers do all day, how they get their job, and 
what do they make.
    Our results in Frederick have been stellar. That's our 
first Scholars country. Fifty-five percent more students in 
poverty completed Algebra I by ninth grade, and that's 70 more 
students. In chemistry, 57 percent more African Americans 
completed chemistry this year over last, and 80 percent more 
Hispanics completed a fourth science, which we think is a very 
important indicator.
    How we've gotten there, it is a complex interplay between 
academic and nonacademic factors. We got the results because we 
have agreements with the local districts that there is a set of 
closely watched metrics that include math and science that we 
will not budge on. And as a result, they're watching those 
metrics and they're problem solving around why more students 
are not taking those courses.
    Access to the coursework is important; a belief that all 
students can do it is important; establishing smaller learning 
communities, for instance, our Algebra I classes in Frederick 
are smaller for children of poverty and children of color; and 
real people from the real world giving real good advice we 
believe is a critical success factor.
    And this year, we are developing a strategic partnership 
with higher ed to bump up those numbers even more. So we 
believe that students can do it if adults stand firmly behind 
them. And we're very, very happy with the first year--second 
year results from Maryland.
    Thank you.
    [The prepared statement of Ms. Streckfus follows:]

 Statement of June E. Streckfus, Executive Director, Maryland Business 
                Roundtable for Education, Baltimore, MD

    The Maryland Business Roundtable for Education (MBRT) is a 
statewide, nonprofit coalition of leading employers that has made long-
term commitment to support education reform and improve student 
achievement in Maryland.
    Since 1992, the Maryland Business Roundtable for Education has 
played a major role in transforming education. Led by an outstanding 
Board of top corporate CEOs, MBRT provides a consistent, strong voice: 
pushing for achievement of high standards; demanding a system of 
education that prepares all students for the rigor of college and the 
workplace; building strong, effective partnerships with all those who 
have a stake in educational excellence and a quality workforce; and 
challenging and motivating students to perform at high levels.
    In Maryland, the bar has been raised on what students are expected 
to know when they graduate. State Superintendent Grasmick and the 
Maryland State Board of Education have set challenging academic 
standards that are rigorous, but reasonable, and have strengthened 
graduation requirements. Students entering high school in 2005 will be 
required to meet these standards in order to receive a diploma. Yet, 
nearly half of Maryland's high school students did not meet the 
standards in 2004.
    Many of today's high school graduates are entering the ``real 
world'' seriously lacking the knowledge and skills they need to be 
successful in college, the workplace, and in life. This not only limits 
their chances to lead productive, rewarding lives, but it profoundly 
diminishes the economic health, leadership potential and future 
prosperity of our communities, our state, and our country.
    MBRT's ``Achievement Counts'' campaign is an award-winning, 
comprehensive campaign that mobilizes the community at large to 
encourage students to achieve academic success. Each strategic and 
interwoven component of Achievement Counts provides students with 
strong messages delivered early, often, and by many.
        Maryland Scholars--Letting students know that choices matter, 
        courses matter
        Speakers Bureau--Showing students that hard work in school pays 
        off in life
        Teen Website--Engaging students in career exploration and 
        academic preparation
        Parents Count--Helping parents help their children succeed in 
        school
    We believe that the student voice is paramount not only to the 
success of Achievement Counts but to the education reform movement in 
general. Too often, without intending it, adults in school systems and 
in school policy positions have missed out on a powerful source of 
energy for academic improvement--students' desire and ability to be 
responsible partners in their own learning.
    We conduct systematic research with students, create ways for 
students to participate in designing the program and crafting the 
messages, and empower students to be more directly engaged in guiding 
their learning and shaping their future.
    Through the newest component of Achievements Counts--``Maryland 
Scholars''--MBRT, in partnership with the Governor and State 
Superintendent of Schools, provides middle and high school students 
with compelling information about the rigorous math and science 
coursework they need to take and complete in high school in order to be 
successful in life--whether they go to college or directly into the 
workplace.
        Maryland Scholars Course of Study:
        4 credits of English
        3 credits of Math (Algebra I, Geometry, Algebra II)
        3 credits of Lab Science (Biology, Chemistry, and Physics 
        preferred)
        3 credits of Social Studies (U.S. History, World History, 
        Government)
        2 credits of the same Foreign Language
    Through Maryland Scholars--part of a national initiative funded by 
the U.S. Department of Education through The Center for State 
Scholars--more than 1,500 business volunteers were recruited, trained, 
and managed. This year, these volunteers made 3,000 interactive 
classroom presentations in 204 schools in 14 school districts to more 
than 70,000 middle and high school students (73% of the state's 9th 
graders and 27% of the state's 8th graders). Plans for 2005-2006 
include reaching 100% of Maryland's high school freshman through this 
program.
    Maryland Scholars was piloted in two districts (Frederick and 
Harford counties) in the 2003-2004 school year. A comparison between 
baseline and year-one data show significant increases in the percentage 
of students completing Algebra I (by 9th grade), Algebra II, Chemistry, 
Physics, and a 4th science course--particularly among low-income and 
minority students.
    In Frederick County, for instance, in the span of one year: 55 % 
more students living in poverty completed Algebra I by ninth grade; 57% 
more African American students completed Chemistry; and 80 % more 
Hispanic students completed a fourth science credit.
    What caused this dramatic increase? High expectations, creating an 
atmosphere of access to rigorous courses, making it feel possible for 
all kids, establishing small learning communities, redesigning how 
rigorous courses are offered to accommodate slow learners, extending 
learning time, providing students with credible reasons, good 
information, targeted support, and a vision of what is possible for 
them.
    As I have traveled to nearly every school district in Maryland over 
the past two months, superintendents, administrators, teachers, 
parents, and employers are speaking candidly and acting resolutely to 
ensure that all students are well grounded in English, math and 
science. We are participating in honest dialogue on barriers and 
shortcomings and innovative thinking about policies and strategies that 
will improve teaching and accelerate learning.
    At a time when No Child Left Behind is demanding academic success 
for all children and the State has raised the floor on what we expect 
student to know, many Maryland school districts are raising 
expectations even further. In all my years in education--including some 
as a teacher and 14 as a business advocate for education reform--I have 
never seen such widespread commitment, belief, focus and determination 
that all children must be better prepared for the future.
    And through our partnership with Maryland's K-16 Council, higher 
education is playing, and must continue to play, a crucial role in 
improving student achievement by: preparing teachers who are competent 
to teach rigorous math and science content; providing academic support 
to struggling high school students; offering incentives and rewards to 
encourage students to complete rigorous coursework, including needs-
based scholarships; and facilitating processes that maximize the 
analysis and use of crucial data.
    We are working at an intersection of academic expectations, 
economic success and a thriving workforce; creating a new model of 
interaction among high schools, students and employers; and attempting 
to deliver education in a 21st century context with 21st century 
content and 21st century tools.
    Students can do it if adults stand firmly behind them.
                                 ______
                                 
    Chairman McKeon. Thank you. Dr. Songer.

    STATEMENT OF NANCY BUTLER SONGER, PROFESSOR OF SCIENCE 
 EDUCATION AND LEARNING, UNIVERSITY OF MICHIGAN, ANN ARBOR, MI

    Dr. Songer. Chairman McKeon, Ranking Member Kildee and 
Members of the Subcommittee, thank you for this opportunity to 
discuss the challenges to American competitiveness in 
mathematics and science.
    Collectively, the information we have so far indicates that 
perhaps never before has the issue of student preparedness in 
math and science been so complex and important. Congressman 
Kildee asked if we needed another Sputnik, and I believe this 
is our wake-up call, our Sputnik moment, as Governor Romney 
mentioned in testimony earlier this week.
    What can we do to improve American students' global 
competitiveness? Based on my work in the last 9 years in one of 
our nation's most challenged school districts, the Detroit 
public schools, I will share two stories and three suggestions.
    First, I recently asked a handful of Detroit public school 
teachers to list challenges to helping Detroit students to be 
globally competitive. The teachers list nine factors, but I'm 
going to only focus on two of those. The last two the teachers 
mentioned were: Eight weeks or more of standardized test 
preparation in every academic year, and approximately 7 weeks 
of testing windows, where a testing window are times when tests 
are given at some point during the week and therefore regular 
classroom schedules are disrupted for the entire week.
    Of the 36 weeks of instructional time in the academic year, 
approximately 15 weeks therefore are spent in test preparation, 
test taking and related activities. Detroit teachers, this 
means, are using approximately 40 percent of their 
instructional time in test-related activities. This leads me to 
ask the question, are we currently doing all we can to support 
American students' preparation and learning of math and science 
with only 60 percent of the possible instructional year?
    My second story refers to my work a few years ago in Japan. 
As a part of a National Science Foundation research study, I 
examined the teaching and learning practices of Japanese 
classrooms as compared to American classrooms. We discovered 
several interesting findings, including: Japanese science 
instruction relied less on textbooks than American science 
instruction, and the Japanese science curriculum was much more 
focused and coherent than the American curriculum.
    To illustrate the focus, the Japanese eighth grade science 
textbook covered eight topics, compared to an average of more 
than 65 topics in American eighth grade textbooks.
    Concerning coherence, concepts in ecology are introduced to 
7-year-olds and then built upon and revisited by 10- and 14-
year-olds to deepen students' conceptual understandings.
    Here in the U.S., are we currently doing all we can to 
support American students' preparation and learning of math and 
science when we provide only a weak opportunity for these 
students to develop deep understandings of essential science 
and math concepts, and a hit-and-miss approach to teaching and 
learning?
    So what have we learned? I provide three suggestions.
    My first suggestion addresses the issue of instructional 
time. We need to counter the growing trends seen in Detroit and 
elsewhere where teachers are told to stop teaching the 
curriculum 2 months or more prior to standardized tests. While 
increased accountability is very important, the cost of 15 
weeks of test preparation and test taking is too high, and it 
outweighs the need for accountability evidence.
    We need the Federal Government to promote smart and 
efficient testing systems that will reduce the need for 
multiple national and state assessments each year. We need 
tests that are strong measures of critical thinking as opposed 
to tests that emphasize declarative knowledge. And we need 
models of test preparation and test taking that respects the 
preservation of instructional time to allow the development of 
deep conceptual understandings.
    Second, rigorous standards rigorously applied are 
important, but they're not sufficient to promote systematic 
exemplary teaching and learning practices in American 
classrooms. Educational research helps us know how people 
develop deep conceptual understandings. We know that 
understanding science and math involves increased time on 
topics, systematic guidance in developing more complex ideas, 
and an ability to revisit and deepen understandings in a 
systematic manner.
    Applying these practices to science instruction within 
Detroit middle schools has resulted in increasing the Detroit 
public school students' state science test scores by 10 
percentage points, thus reducing the gap between the statewide 
and Detroit passing averages from 30 to 20 percent.
    While national standards have begun to provide the needed 
systematicity, these are not nearly enough. We need continued 
Federal funding to support research to provide convincing 
empirical evidence of successful programs and to scale these 
programs to thousands of schools or more. Pockets of success 
are wonderful, but to take on global competitiveness, we need 
much more than national standards and a handful of exemplary 
cases.
    Third, the crisis of global competitiveness is particularly 
severe in urban schools. If we are serious about improving our 
global competitiveness across the nation, it's essential that 
we marshall our resources toward all science and math students, 
and in particular the 30 percent of our nation's children in 
urban settings. With the increasing role and importance of 
science, math and technology in our future, we cannot afford to 
continue to provide an inferior education to urban children.
    In addition, what kind of future do we envision in 20 years 
without the brainpower of a third of the possible scientists, 
mathematicians and engineers?
    In Detroit, like other districts nationwide, we have 
excellent teachers and pockets of success. However, what is 
needed is so much more than my anecdotes. Global 
competitiveness is a crisis of substantial magnitude. I believe 
we know a great deal about what works and what we need to do. 
The question is whether or not we're serious about confronting 
this challenge.
    Thank you.
    [The prepared statement of Dr. Songer follows:]

 Statement of Nancy Butler Songer, Professor of Science Education and 
      Learning Technologies, University of Michigan, Ann Arbor, MI

    Chairman McKeon, Ranking Member Kildee, and members of the 
Subcommittee, thank you for this opportunity to discuss the challenges 
to American competitiveness in mathematics and science. It is pleasure 
to appear before you today. My remarks draw from my work focusing on 
preparing students to be competitive in science, particularly students 
within high-poverty urban school districts such as in the Detroit 
Public Schools.
    As is well known, the status of American students' global 
competitiveness in mathematics and science is catastrophic and 
declining. A very small percentage of the doctorate degrees in 
mathematics, science and engineering are being awarded to American 
students. Comparative international standardized test results in 
mathematics and science often show American students performing in the 
top half in fourth grade but dropping considerably by the eighth grade 
and beyond (Schmidt, McKnight and Raizen, 1996; Gonzales et al, 2004). 
Consistently, international tests demonstrate that American science and 
mathematics students under perform on achievement tests relative to 
peers internationally.
    In one recent international test specifically designed to measure 
fifteen year old students' problem solving and reasoning abilities as 
applied to real world problem situations, students in 28 of the 40 
countries outperformed American fifteen year olds in math and problem 
solving. Students in 22 of the 40 countries outperformed American 
fifteen years olds in science (OECD, 2004).
    Collectively, the indicators suggest that perhaps never before has 
the issue of student preparedness in math and science been so complex 
and important. Our status right now is like standing on a dangerous 
cliff, a precipice, looking towards a future with grim consequences for 
our economy and our nation.
A Particular Focus on Urban Science and Mathematics Education
    My work over the past fifteen years involves large-scale projects 
to improve the competitiveness of American science students. The past 
nine years have focused exclusively on American students in one of our 
nation's most challenged school districts, the Detroit Public Schools. 
My focus in Detroit leads me to suggest, first and foremost, that in 
our challenging work ahead, we place considerable focus on urban 
students. While the underperformance of American students relative to 
peers internationally is dire, the performance of American urban 
students lag behind national averages by twenty percentage points or 
more, a difference that is nearly the equivalent of one U.S. grade 
level (Songer 2004; Ravich, 1998).
    Our nation's urban schools enroll approximately 2.3 million 
students or 30 percent of all public school students in the United 
States. Urban students account for about 40 percent of the nation's 
poor and 45 percent of the nation's minority students. In Detroit, our 
students have nearly three times the average poverty rate of the state 
of Michigan (70 percent free/reduced lunch as compared to 26.7 percent 
state average) and 94 percent are ethnic minorities. Nationwide, the 
proportion of American students enrolled in urban schools is growing. 
Therefore if we are to fix the problems of global competitiveness in 
math and science within the United States, we must combat these issues 
in districts where there is the potential to have the greatest impact, 
such as in the Detroit Public Schools.
Reversing the Trends
    What can we do to reverse the trends of global competitiveness? 
Much is known about how to combat these issues. Research has provided 
us with tested strategies to alleviate these problems and to reverse 
current trends. Some of the well-documented strategies include:
    <bullet>  Teachers make a difference. We need to continue efforts 
to increase the professionalism of K-12 public teachers such as are 
commonplace in many Asian countries.
    <bullet>  Strong school leadership is essential. We need to 
continue efforts to evaluate and support high standards for school 
administrators.
    <bullet>  Strong evidence of student learning and ``what works'' in 
schools is needed. We need accountability evidence for teachers, school 
administrators, parents and other key stakeholders.
    <bullet>  Rigorous standards make a difference. We need to continue 
to improve our national standards, and to apply them rigorously.
    Our work in Detroit supports the importance of professional 
teachers, school leadership, evidence and rigorous standards. These 
strategies are essential to increase students' competitiveness in 
mathematics and science, but they are not sufficient. Nor do they 
comprise the complete list of what we have learned in the past fifteen 
years. Let me elaborate through two stories.
            Story One: Reflecting on Detroit Teachers' Viewpoints
    In preparation for my testimony today, I asked a handful of Detroit 
Public School teachers to list particularly daunting challenges that 
impeded their ability to prepare their students to be competitive in 
math and science. The list the Detroit teachers provided is as follows:
    <bullet>  Below grade level reading abilities
    <bullet>  Truancy from school
    <bullet>  Teachers' low comfort levels with math and science 
leading to reduced time on challenging material (most common in 
elementary classrooms)
    <bullet>  Lack of consistency in what is being taught across the 
district
    <bullet>  Timely dissemination of information across the district
    <bullet>  Financial resources
    <bullet>  Parental support and parental help with homework
    <bullet>  Eight weeks or more of standardized test preparation, and
    <bullet>  Approximately seven weeks of testing windows (for MIP, 
MEAP--Michigan state standardized tests and Terra Nova tests. Testing 
windows are times when tests are given at some point during that week 
and therefore regular classroom schedules are disrupted for the entire 
week).
    While all of the points raised by Detroit teachers are important, I 
draw your attention to the last two items. Of the 180 days or thirty-
six weeks of instructional time in their academic year, approximately 
fifteen weeks are spent in test preparation, test taking and related 
activities. Collectively, Detroit teachers are using approximately 
forty percent of their instructional time in test taking and test 
preparation. As these numbers are suggestive of numbers systematic 
across the school district, we can estimate that Detroit Public School 
students have available only sixty percent of their academic year for 
instructional activities.
    In general, I am supportive of the federal government's role in 
encouraging greater accountability and high academic standards in 
education. I also recognize that time spent in test preparation and 
test taking is often higher in urban schools than in suburban schools.
    Nevertheless, the numbers from the Detroit teachers illustrate a 
pattern we are observing across the nation, that of test-related 
activities ``crowding out'' available time for instruction. Personally, 
I found the Detroit teachers' numbers shocking, and I was left with 
many unanswered questions. How widespread is this phenomena? What 
evidence do we have of its impact on student comprehension of science 
and mathematics material? Is there enough instructional time to ensure 
American students can solve arithmetic problems, ask scientific 
questions, or gather scientific evidence to perform a scientific 
experiment? Most importantly, are we currently doing all we can to 
support American students' preparation and learning of math and science 
with only 60 percent of the possible instructional year?
Story Two: A Study of the Comparison of Japanese and American Science 
        Classrooms
    My second story refers to my work a few years ago in Japan. As a 
part of a National Science Foundation research study, I examined the 
teaching and learning practices of Japanese classrooms as compared to 
American classrooms. We discovered several interesting findings:
    <bullet>  Many of the topics taught in K-12 science are the same in 
both countries (e.g. electricity, motion, food webs).
    <bullet>  In addition, there were many similarities between 
exemplary American classrooms teaching practices and the Japanese 
classrooms we observed.
    <bullet>  However, Japanese science instruction relied less on 
textbooks than American science instruction. Japanese instruction 
placed more instructional time on experiments in science, and
    <bullet>  The Japanese science curriculum was much more focused and 
coherent than the American curriculum. To cite one example, the 
Japanese eighth grade science textbook covered eight topics compared to 
an average of more than 65 topics in American eighth grade textbooks 
(Linn, Lewis, Tsuchida and Songer, 2000).
    Cross-cultural comparisons are often difficult because it is easy 
to oversimplify both similarities and differences. For example, 
American science instruction varies considerably from teacher to 
teacher and from city to city, and this variety is much more pronounced 
than what we observed in Japanese classrooms. Such variety makes it 
difficult to speak about what constitutes the practices of a 
``typical'' American classroom.
    Despite the variety among American classrooms, our study suggested 
that, in general, Japanese students were spending longer amounts of 
instructional time on each science topic than their counterparts in 
America. In addition, there was tremendous consistency in the teaching 
and learning approaches used in the Japanese classrooms with a strong 
emphasis on many of the practices that American educators see as 
exemplary. For example, concepts in ecology are introduced to seven 
year olds and then built upon and revisited by ten and fourteen year 
olds to deepen students' conceptual understandings of the concepts. 
Japanese students' science activities nearly always includes the 
exemplary practices listed below even though these same practices are 
inconsistently present in American science classrooms:
    <bullet>  Connecting lessons to students' interests and prior 
knowledge
    <bullet>  Eliciting student ideas then planning scientific 
investigations
    <bullet>  Conducting investigations
    <bullet>  Systematically analyze or organize information
    <bullet>  Reflect and revisit hypotheses and predictions
    <bullet>  Connect to next lessons and identify unanswered questions 
(Linn, Lewis, Tsuchida, Songer, 2000)
    Perhaps as a result of my inquisitive nature, once again these 
study results left me with many unanswered questions. Despite 
widespread understanding of how children learn and the exemplary 
practices that lead to deep conceptual understandings of scientific 
concepts, why are these practices commonplace in Japanese classrooms 
but only present infrequently within the American educational system? 
Are we currently doing all we can to support American students' 
preparation and learning of math and science when we provide only a 
weak opportunity to develop deep understandings of essential science 
and math concepts and a ``hit and miss'' approach to teaching and 
learning?
What Have We Learned?
    I conclude my testimony with three suggestions representing what we 
have learned about how to reverse the trends that are contributing to 
the inability of American students to compete with Japan and other 
industrialized nations in mathematics and science.
    My first suggestion addresses the issue of instructional time. We 
need to counter growing trends seen in Detroit and elsewhere where 
teachers are told to stop teaching the curriculum two months or more 
prior to standardized tests. While increased accountability is 
important, the cost of fifteen weeks of test preparation and test 
taking is too high, and it outweighs the need for accountability 
evidence. We need the federal government to promote smart and efficient 
testing systems that will reduce the need for multiple national and 
state assessments each year. We need tests that are strong measures of 
critical thinking as opposed to tests that emphasize declarative 
knowledge. And we need models of test preparation and test taking that 
respect the preservation of instructional time to allow the development 
of deep conceptual understandings.
    Second, rigorous standards rigorously applied are important but 
they are not sufficient to promote systematic exemplary teaching and 
learning practices in American science and math classrooms. Educational 
research helps us know how people develop deep conceptual 
understandings of concepts. We know that understanding science and math 
involves increased time on topics, systematic guidance in developing 
more complex ideas, and an ability to revisit and deepen understandings 
in a systematic manner. Applying these practices to science instruction 
within Detroit middle schools has resulted in increasing Detroit Public 
School students' state science test scores by ten percentage points, 
thus reducing the gap between statewide and Detroit passing averages 
from 30 to 20 percent (Songer, 2004). While national standards have 
begun to provide the needed systematicity, these are not nearly enough. 
We need continued federal funding to support research to determine best 
means for determine successful programs and to scale successful 
programs to thousands of schools or more. Pockets of success are 
wonderful, but to take on global competitiveness we need much more than 
national standards and a couple of handfuls of exemplary cases.
    Third, the crisis of global competitiveness is particularly severe 
in urban schools. If we are serious about improving our global 
competitiveness across the nation, it is essential that we marshal our 
resources towards all science and math students and in particular 
improving science and math education among the 30 percent of our 
nation's children in urban settings. With the increasing role and 
importance of science, math and technology in our future, we cannot 
afford to continue to provide inferior education to urban children. In 
addition, what kind of future do we envision in twenty years without 
the brainpower of a third of the possible scientists, mathematicians 
and engineers?
    In Detroit, like other districts nationwide, we have excellent 
teachers and pockets of success, however what is needed is so much more 
than my anecdotes. Global competitiveness is a crisis of substantial 
magnitude. I believe we know a great deal about what works and what we 
need to do. The question is whether or not we are serious about 
confronting this challenge.
    Thank you.
Works Cited
Gonzales, R., Guzman, J.C, Partelow, L., Pahlke, E., Jocelyn, L., 
        Kastberg, D., Williams, T. (2004) Highlights from the Trends in 
        International Mathematics and Science Study (TIMSS) 2003. (NCES 
        2005-005). U.S. Department of Education, National Center for 
        Educational Statistics. Washington, D.C.: U.S. Government 
        Printing Office.
Linn, M.C., Lewis, C., Tsuchida, I., and Songer, N.B. (2000) Beyond 
        Fourth-Grade Science: Why do U.S. and Japanese Students 
        Diverge? Educational Researcher 29(3) 4-14.
OECD (2004) Programme for International Student Assessment: PISA 2003 
        test results available at: http://www.oecd.org/.
Schmidt, W.H, McKnight, D.C., and Raizen, S.A. (1996). Splintered 
        vision: An investigation of U.S. and mathematics education. 
        Michigan: U.S. National Research Center for the Third 
        International Mathematics and Science Study (TIMSS), Michigan 
        State University.
Songer, N.B. (2004) Persistence of Inquiry: Evidence of complex 
        reasoning among inner city middle school students. Paper 
        presented at the American Educational Research Association 
        (AERA) annual meeting. San Diego, CA.
                                 ______
                                 
    Chairman McKeon. Well, thank you very much. There's lots of 
thought-provoking meat in what you've given us here today. I 
referred to the trip that we took to China. And while we were 
there, we met with government leaders, we met with industry 
leaders, we met with education leaders, we met with students, 
we visited schools. And our purpose was to see what they are 
doing in education and how we can prepare ourselves to compete, 
because we are in a big competition.
    And they agreed I think pretty much universally that their 
students did better than our students in math and science, and 
that our students did better in creativity and in the soft 
skills. And I think a lot of that, as I was thinking about it, 
is cultural.
    They pointed out to us that there they have one child, they 
have two parents and four grandparents focus on that one child, 
and a lot of pressure put on that child because for them, I 
mean, our poor in this country would be considered a whole lot 
better off than their poor in their country. And somebody can 
drop out of school in our country and still kind of get by.
    Over there, their poverty is so deep that the only way for 
them out is education. And they have this tremendous 
competitiveness. If they don't do well on that test in their 
junior year of high school--in some places the screening starts 
much earlier--but if they don't do well, they don't go to 
university. If they don't go to university, their life is not 
very good.
    So they understand culturally how important and how 
education is everything to them. And they don't look at a high 
school education or even a bachelor's or even a master's. In 
fact, Harry Shum I think was his name, the head of the 
Microsoft research and development lab over there, who was born 
in Beijing, educated in Hong Kong, came here to get his higher 
education degrees, said when he got his Ph.D. his parents said, 
wonderful. Now you can start your post doc. I mean, to them, 
it's--their goals are so much higher than ours, so it's a 
really, really tough thing.
    Derrick Bock, a professor at Harvard, wrote recently that 
in contrast to nearly every other sector of the economy, the 
actual method of instruction in college hasn't really changed 
in over 40 years. ``I see lots of good things happening in 
school, K-12, universities, colleges, proprietary schools, lots 
of exciting things happening. But I notice that some of the 
schools have not changed a whole lot,'' as he says in his book, 
``in over 40 years.''
    If schools aren't willing to change, if they're not willing 
to change their methods, adapt so that they can be more 
effective and efficient, how are we going to be able to 
compete? How are we going to expect our students to be 
creative, innovative and to do well if the schools are not 
adapting to new methods and new ways? What can we do to change 
this culture and this environment? Anybody?
    Dr. Magnanti. Mr. Chairman, if I may. One, I would echo 
some of those concerns. Clearly the concerns about people in 
China, India seeing education as the road to upward mobility, 
as we had in this nation for a long, long time. I would suggest 
that, at least as I see it, many of our universities are 
changing at this point in terms of their educational pedagogy. 
And again, I'll just give an example or two from MIT, but I 
think I could cite examples from many.
    One program that we have right now is called Eye Labs or 
Web Labs. These are laboratories at a distance. So in order to 
use laboratories more effectively, you can sit at your 
computer, you can actually run, physically run a laboratory, 
whether it's a wind tunnel, it's a MEMs testing device. And the 
notion is to provide 24/7 access to that lab, to integrate 
laboratories more effectively with the lecture material that we 
have in our classes, and also then to provide more access to 
those facilities so that we can have students at high schools 
having access to those facilities, students at universities 
having access to facilities at corporations that we can't 
afford to have in terms of our activity. That's one example.
    I think another example is one of our signature courses at 
MIT, an introductory computer science course, which about two-
thirds of all the students at MIT take. That course is now 
taught without lectures. It used to be it was taught in big, 
300-person lecture halls, a very sort of impersonal lecturing. 
It's now taught with voice annotated Powerpoint slides done 
then in small sessions of recitation sections which the 
students are interactively more actively with the professors 
and getting more engaged with the professors.
    So I actually think that what's happening right now, at 
least at the university level, is we're seeing a bit of a sea 
change. I think we did fall asleep for many years in terms of 
changing the pedagogy and changing what we're doing. But I see, 
not just at MIT, at Michigan and many of our other 
universities, significant changes in the pedagogy that we're 
developing. And I think it's--we need government and industrial 
support to help us make that transition. But I think it is a 
time of transition right now.
    Chairman McKeon. My time is over, but what kind of--you 
need government support. In what way?
    Dr. Magnanti. Well, I think we could use government support 
for providing the infrastructure, for this technology 
infrastructure.
    Chairman McKeon. Money.
    Dr. Magnanti. Some money, in terms of money for the 
infrastructure. I think we could also provide opportunities for 
government, universities and industry to get together to create 
local consortiums that could help us to have better access to 
shared facilities between the universities, local industry. I 
think there's actually a wide variety of ways in which we can 
do such things.
    Chairman McKeon. Thank you very much. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. When I was teaching in 
Flint, Michigan, AC Division of General Motors, now Adelphi, 
separated from them, and DuPont, from time to time would raid 
the public schools, the high schools particularly, for math 
teachers and science teachers and we'd lose them to the private 
sector because they could offer them, you know, more money. 
They never tried to raid me. I was a Latin teacher and they 
never approached me for any need at Adelphi or DuPont.
    How can we address this? Because there is a temptation to 
go into the private sector rather than have a great crackerjack 
science or math teacher stay in the public school system. Any 
of you have any response to that?
    Mr. Augustine. Well, I'd be happy to touch on that from the 
business perspective. Currently we need to make the rewards of 
a teaching career much greater, both financially and socially 
and culturally. We clearly badly underpay our teachers, the 
best of our teachers. And that's something that as a nation I 
think we need to deal with.
    But I think that's not the only issue. We need to make 
teaching where it's a very attractive career, that people take 
pride in it. And then people will stay in that career. It is 
true that business seeks the most talented people it can find 
anywhere, and it probably will continue to do that, and we 
probably wouldn't want it to do anything else. So I think the 
solution is not so much to change business but to change our 
dealing with the career of teaching.
    I taught a brief period myself, and I discovered teaching 
is very hard work. Very hard work. And people who have not 
tried it I think don't fully appreciate that. So I think there 
are things that can be done.
    I think there are also things that companies can do, for 
example, in the university level. I would like to see tax 
consideration given to companies that fund research in 
universities. I think that would be a win-win for everyone. But 
those are the kinds of things one might do.
    Mr. Kildee. Dr. Songer, you're experienced with the Detroit 
school system. Do you have any comment on that? Do they retain 
their math and science teachers there?
    Dr. Songer. In Detroit? No. We are not terribly successful 
in retaining the good teachers, and that's true for urban 
districts nationwide. Recruiting teachers to teach in urban 
settings is very challenging, because the teaching environment 
is such a challenging teaching environment.
    I think that the key here that is common across the 
education community is that we really need to focus on the 
professionalism of teachers, which is what Mr. Augustine was 
talking about. It's just--the teaching profession has lost its 
glamour. And, it's not only challenging, it's not safe, it's 
not fun, it's not rewarding. And that--it's really frustrating 
for us that are promoting teaching as a profession to have to 
face the challenges that we see when actually the rewards of 
teaching, just the teaching itself, are very, very valuable for 
many people. And I think people go into it hoping that that 
will be consistently a part of their job. And what happens is, 
some of these other issues just overshadow their ability to 
really enjoy the pleasure of the teaching.
    So I think the professionalism of teaching is just an issue 
we can't get away from. We have to work with that in a serious 
way.
    Mr. Kildee. And if a student is not getting involved in 
math and science in the K-12, they're not likely to have an 
epiphany when they're in college, are they?
    Dr. Songer. Absolutely. It's the pipeline issue where we 
want to keep them engaged from middle school on. The 
standardized test scores show that in fourth grade, for 
example, American students are doing very well in math and 
science. by eighth grade, the declines have gone down. By 12th 
grade, we're in about the lowest 10th percent in terms of 
industrialized countries.
    So, we do need to get in early and keep it engaging for a 
longer, sustained period of time.
    Mr. Kildee. Dr. Magnanti?
    Dr. Magnanti. If I could just add, I'm echoing Mr. 
Augustine. I think salary is an issue, but I think a rewarding 
career path I think is an issue. And I think for perhaps modest 
sums of money, one could think about providing funds for 
teachers to spend summers at corporations, to spend summers at 
universities and get them engaged so that they continue to be 
engaged with the underlying math, science and engineering 
activities, so they can then bring that back to the classroom.
    I think there's some ways of making it just a much richer 
career for these people, so that they'll be more excited about 
being teachers and would provide I think a little bit more 
incentive for them to participate in the teaching enterprise.
    Mr. Kildee. Thank you very much. Thank you, Mr. Chairman.
    Chairman McKeon. Mr. Osborne.
    Mr. Osborne. Thank you, Mr. Chairman. And I'd like to thank 
members of the panel for being here today. We appreciate your 
presence very much. Mr. Augustine, you mentioned that we need 
to strengthen K-12 education. You talked about the value of 
competition and maybe doing something to compensate teachers 
better. I'm assuming merit pay or something like this. Do you 
have any specifics on the compensation of teachers? Because 
ofttimes you run into the teachers unions and various 
regulations that make this very difficult. Have you heard of 
anything or do you have any ideas that would be helpful?
    Mr. Augustine. You're quite correct that it's a very 
difficult issue to deal with. The teachers union issue and 
tradition. But I think we're dealing with a problem here that 
goes beyond the band-aid stage. We need major surgery. And I 
think we're going to have to do some things that we don't like 
at all perhaps if we're to accomplish what we want.
    It's often pointed out that how do you evaluate a teacher? 
Is it just the results of the students on a standardized test? 
And I would certainly hope not. In business, we reward people 
based on their contribution. And when we measure contribution, 
we use, to take an analogy, I grew up in the West in rodeos. 
The rider of a bull gets two scores. One is how hard the bull 
bucked, and the other is how well they rode. And one has to 
take that into consideration.
    If you're teaching in an inner city school with children 
that haven't had great opportunity, the fact that you may be in 
the bottom 20 percent, but instead of the bottom 2 percent, you 
should be given credit for that. And I realize this is not an 
exact science at all. But in the business world, we exercise 
judgments every day as to who gets to keep their job, who gets 
promoted and what they get paid, and it's made America's 
business thus far as successful as any in the world. And I 
believe in the free enterprise system. It works in our 
universities. I think it could work in K-12.
    Mr. Osborne. OK. Thank you. And Dr. Magnanti, just a very 
quick question here. You mentioned that we are now producing 75 
percent of the Ph.D.s that we were in 1985 per unit of 
population, and more MBAs and that type of thing. Do you have a 
quick answer as to why you feel this is the case?
    Dr. Magnanti. Well, one I think is just monetary return. I 
think if you look at salaries and the like, our chairman quoted 
some salaries for various professions, but if you think of 
salaries for MBAs versus engineers, they're quite stark in 
terms of the difference in terms of salary. So, part of this is 
an issue I think of all of us honoring and having a better 
sense of economic value of our engineering workforce. I think 
that's certainly one issue.
    And I think also is providing the right instruments and 
incentives to make engineering exciting. And I think if we 
could develop some long-term important national initiatives 
that we could work on, the Sputnik of our era. Governor Romney 
mentioned some of these, whether it's energy and greater energy 
independence or greater activity in terms of the energy sector, 
but some exciting national imperative that we could work on as 
a nation, again, to sort of try to attract talent to the 
engineering and sciences. I think that would be one useful 
instrument for trying to do this.
    Mr. Osborne. OK. Well, I noted you also mentioned a shift 
toward entrepreneurial smaller companies. And sometimes a blend 
of engineering and technical know-how with MBA skills serves 
those companies well.
    I'd like to move on to Ms. Streckfus and Dr. Songer. I'm 
assuming, I'm just guessing from listening to you that I think 
Ms. Streckfus mentioned that you had embraced No Child Left 
Behind. And Dr. Songer, I gathered from listening to you that 
maybe you didn't embrace it very much, and wanted to--and that 
may be a generalization on my part. But at any rate, you know, 
testing is part of No Child Left Behind, and if you have any 
comments there, I'd be interested in having you flesh out your 
thoughts a little bit, either one of you, as to how you feel 
this is working.
    Ms. Streckfus. In Maryland, we believe that you need to 
measure and need to have focus and need to have data, and that 
the only way you can do that is through assessments. And we 
believe that there's value with state assessments, because 
prior to this, we really didn't know what Algebra I was in any 
district in Maryland or in any school in Maryland. So what No 
Child Left Behind has pushed on is to make sure if we're 
assessing in that area, we need to have rigorous standards, and 
then the assessments need to reflect accomplishment of those 
standards.
    We hear the argument frequently that there's a lot of focus 
on how to take the test, that everything stops in a classroom 
prior to that. We've just met with 20 superintendents district 
by district in Maryland. I have never seen--and I taught school 
in '68, so I've been with this for a long time--I've never seen 
such focus, such look at what are we going to do to get all 
kids to hit the standards, a concern about adequate yearly 
progress, but not an overwhelming concern. The concern is more 
around how are we going to get more students to these higher 
levels of learning.
    So, could you go to an extreme with No Child Left Behind 
and testing and--yes. Do you have to constantly be vigilant to 
make sure that that doesn't happen? Yes. But bottom line, what 
we're trying to do with that legislation and how it's being 
enacted in Maryland I think is a model for what Maryland 
Business Roundtable would like to see continue.
    Dr. Songer. I would just like to add a few comments to what 
Ms. Streckfus said. In general, I'm actually very supportive of 
the ideas behind No Child Left Behind. I think it's a wonderful 
way to get the conversation going about the need for high 
standards and accountability, and those are exactly the right 
conversations we need to have.
    I think the problem is that whenever you put any piece of 
Federal legislation into place like this, the way it's 
manifested is sometimes difficult. And unfortunately, the piece 
of my testimony that I spoke about is only a small section of 
the piece in the written testimony that talks about No Child 
Left Behind and some of the things and ideas behind it. And 
actually, I believe that in some ways this is exactly what we 
need to be doing right now. We need to be raising--having high 
standards and putting pieces into place that will allow schools 
to be accountable and to reach those high standards.
    I think it's just that in the process of implementing these 
things, sometimes some of the details overshadow the general 
idea, and I think that's what's happening in Detroit when 
they're spending so much time in test preparation because the 
stakes are so high for them.
    Mr. Osborne. Thank you. And I yield back, Mr. Chairman.
    Chairman McKeon. Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman, and I thank the 
witnesses. It's hard to think of any more important topics than 
what we're covering today. It's particularly dear to my heart 
as a scientist, as a physicist, along with my colleague, Mr. 
Ehlers. We often talk about this and point out that the low 
comfort level with science and math goes beyond just teachers. 
It's in society at large, which creates something of a chicken-
and-egg problem if we're trying to build interest and support 
for science and math teaching throughout the schools.
    There's a lot to be said about standards. I was interested 
to learn just this morning that a survey of the graduation 
exams, high school graduation exams, in a number of states, 
find that to pass the math tests, students have to demonstrate 
math skills that in other countries would be taught in the 
seventh or eighth grade.
    But let me refer back to some work that I was involved in, 
well now nearly a half dozen years ago. I served on the John 
Glenn Commission, the National Commission for the Teaching of 
Math and Science. I think we did a good job. We focused on 
teachers, the teaching of math and science. There's a lot that 
can be done with curriculum. There's a lot that could be done 
with parents. There are lots of other things, but we decided to 
focus on teachers.
    And I just wanted to quickly run through the 
recommendations from that commission. Some of you may be 
familiar with them. And in the little time that will then be 
remaining, I'd appreciate your comments, and if there isn't 
time this morning, your subsequent comments.
    Goal one was to establish an ongoing system to improve the 
quality of math and science teaching in grades K-12. So it 
called for summer institutes, continuing education, that sort 
of thing. Not just occasional in-service days, but school 
districts reward and incentive programs and that sort of thing.
    We called for increasing significantly the number of math 
and science teachers, partly by identifying exemplary models of 
teacher preparation, working with the schools of education, 
finding ways to attract additional qualified candidates, partly 
through such things as selecting 3,000 annual academy fellows, 
teaching academy fellows.
    We called for improving the working environment in the 
schools, which would focus on induction programs to help 
beginning teachers of math and science become acclimated, so 
that we wouldn't lose so many new teachers. As you know, most 
teachers don't last beyond 5 years, and that's at least as true 
in math and science as in other areas.
    Part of this improving working environment, we called for 
business partnerships. And that gets to a key point that I hope 
in your subsequent comments today you'll address as really what 
is the role. I mean, we hear an awful lot of complaints or 
horror stories from business and industry. Part of what we're 
looking for is what's their role in addressing this.
    I think we need to provide incentives to encourage math and 
science teachers to remain in the field as well as to enter in 
the field, and of course, salaries.
    So that's a quick summary of what the John Glenn Commission 
recommended. Do those recommendations still hold up?
    Mr. Augustine. If I might, I would comment briefly. I think 
they are very sound indeed. And I would like to just site one 
example of a business partnership that some years ago in a 
company I then served, Lockheed Martin--or actually, it was 
Martin Marietta at the time--we wondered how we might help in 
K-12. And we concluded that the most leverage was to be had by 
helping teachers, exactly as you site. And the reason is that 
teachers have such impact on people, and if they affect a few 
students each year during a career, it adds up.
    And we began a program of fellowships during the summer for 
outstanding teachers to go to a university that we had an 
affiliation with and spend part of the summer in a summer 
program trading ideas on teaching, taking courses on the latest 
trends in science and mathematics. And we tried to do it so it 
would be very pleasurable, not on the cheap, something that 
people would really look forward to being able to do. And I 
think that's an example of the kind of thing that I assume your 
commission was referring to that could make a difference.
    I would just have on caution, and that is that, 
particularly at the university level, there's also the danger 
of too much involvement of the business community in education, 
a danger that it begins to exert pressures on what you teach. 
And one has to guard against that, too.
    Thank you.
    Chairman McKeon. Thank you. Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. I really want to thank 
you for calling this hearing. This is an extremely important 
topic. I'm of course prejudiced on this. I have spent a good 
many years of my life in this starting in 1966 when I became 
concerned about what was then called scientific illiteracy. And 
I asked myself what a simple little college professor could do, 
and I started a special course for future elementary school 
teachers, teaching them physical science and how to teach 
science in the schools. And that started a lifetime interest.
    But I'm very pleased with the hearing for another reason, 
because I started in 1996 in the Congress to make this my No. 1 
priority, and literally I was a voice crying in the wilderness. 
I could not get attention, very little support. No one believed 
me. And today, every week I read a quote in a newspaper or a 
magazine from a leading industrialist saying this is the No. 1 
problem in our country, as our panel has said.
    I'm going to act more like a witness than a questioning 
congressman, because I want to reinforce some of the points 
that were made. I may start preaching, too, and I hope you'll 
forgive that, too.
    But first of all, I agree with my colleague, Rush Holt, my 
fellow physicist. The Glenn Commission did good work. It was a 
real disappointment to me that the report essentially fell with 
a dull thud on American society and has not really been 
followed as it should have been.
    I believe we have a major crisis in this country in math 
science education. And I call it a major crisis because it is 
causing a major crisis in innovation and manufacturing in this 
country. And you've heard the figures from Dr. Magnanti, and 
I'm sure all the witnesses are aware of that. Things look very 
grim for our prospects in global competition if we don't 
improve in our math science education.
    I'm tremendously pleased with the growing interest in it. 
I've been asked and gave three speeches already this week on 
the topic. So people coming to Washington are actively 
interested in it and want to hear what's going on.
    One key factor I didn't pick up here which I think has to 
be included is starting early. I have concentrated my efforts 
on the K-12 system, and primarily K-8, because that's often 
neglected. And if we don't get students coming out of the K-12 
system with the necessary background, they are simply not going 
to pursue science, technology, mathematics, engineering at the 
college level, because it would take them 5 years, maybe even 
longer, to get caught up and get out. So we really have to make 
sure they have the background.
    Another problem is math and science tend to be sequential, 
particularly the physical sciences. If the students get off 
track or miss something at some point, it hurts them for the 
rest of their educational track. And so there are I think 
strong arguments for developing common themes in all math and 
science curricula throughout the country. I know the Federal 
Government can't control the schools, can't control the 
curricula, but at least can we agree on certain ideas, 
principles, concepts that must be taught at each grade level, 
so that when the students transfer, as they often do, they 
don't lose the track and the sequential nature of this?
    Another problem I've encountered in my experience that 
fairly often, math and science are considered optional in the 
early grades, particularly elementary school, but sometimes 
even in the high school, and I fail to understand that. And I 
have experienced that with my own children. My son loved 
science. He was in a school that had an excellent science 
program, went through 4 years of it. In fifth grade, he wasn't 
getting science. So I inquired of the teacher, and she says, 
well, we just have too much to do in the fifth grade. We have 
band gets added on and this and that and the next thing. And we 
just don't have time to teach science. And I said, well, my son 
is disappointed. He enjoys it. Well, we have this good science 
kit. We'll let him work on it in his spare time. He's a bright 
student. He has extra time, he can do it.
    So I went to see the principal and talked to him about it. 
He says, oh well, teacher doesn't like science, she doesn't 
like to teach it, there's not much I can do about it. And I 
said, well, if you have a teacher who decided not to teach 
reading or some other subject, wouldn't you do something about 
it? Well, yes, but, you know, science isn't that important.
    We have to get away from that attitude. And that's not an 
isolated example either. School boards in general do not give 
full support to it.
    One of you made the comment that it's very important to 
have real people giving real advice. I heartily concur. In all 
the speeches I've given from coast to coast on this to 
scientists and engineers and mathematicians, I encourage them 
to go to the school nearest them and volunteer, not on a 
regular basis so much, but just say, look, I'm an engineer. 
It's really exciting to me, and I want to make sure your kids 
understand what engineering is so that they can make a good 
choice about it. And I think this can have a real impact on 
students.
    And perhaps my own life is an example of that. I grew up in 
a small community. I never met a scientist. I had some interest 
in science but no one to talk to. And in high school, I ended 
up sitting in a diner next to someone one time. We started 
talking. He was a mechanical engineer at Ford Motor Company. We 
had a 15-minute conversation about what he did, and I thought, 
that sounds neat. I was working part time as a mechanic. I 
loved to work on cars. Maybe I should be a mechanical engineer. 
So 2 years later when I went off to college, they asked what's 
your major? I said mechanical engineering. On the basis of a 
15-minute conversation with an engineer in a diner, someone I 
never knew.
    And I think it's very important for scientists, engineers, 
mathematicians to get out in the public, talk to kids, and not 
go to the school with the attitude, I'm going to tell you how 
you should teach this. Just the attitude, I want your kids to 
know how much fun it is. And kids do enjoy it in the elementary 
school.
    Dr. Songer, my fellow Michigander, you commented about the 
one-third of students in urban areas, and that's a very real 
problem. We have to deal with that. But I also want to remind 
everyone here and the Committee Members, let's not forget the 
half of our population that is female. America I think has a 
unique cultural problem. Because in other countries--China, 
Russia, Europe--by and large, half of the science students are 
females. In America, there's a cultural disposition that women 
should not do that. And I encountered it first when my daughter 
was--who had gotten A's in math all the way through elementary 
school and got to high school algebra, the first test was an A. 
The second one B-minus--or B-plus. The next one B-minus. I had 
a little talk with her and said, what's going on here? And she 
says, well, you know, girls can't get math. That's the peer 
pressure in America. That's the culture in America. And we 
should tackle that.
    Fortunately, it's changing. But today still, women 
graduating as engineers, I believe they're 7 percent of the 
total. There's no reason it shouldn't be 50 percent. And we as 
a nation have to work on that.
    My final point, I think three things we have to work on. 
No. 1, in my experience working in the schools, and I've worked 
in a lot of elementary schools as well as teaching at the 
university level for 22 years, in my experience, the single 
greatest factor in the success of the student is to have at 
least one interested and involved parent. It's very hard for 
the government to impact that. But it's something we absolutely 
have to communicate. If you have that, then the teachers in the 
schools have an opportunity. If we don't have an interested, 
involved parent, it's very difficult for the schools or the 
teachers to have an impact.
    Second, we need qualified, well trained teachers. We've 
talked about that enough. And your comment, Norm, about summer 
opportunities for them and things industry can do to help, 
that's also true of government labs, it's true in a number of 
things. Very valuable experience for teachers at the high 
school level and perhaps even elementary.
    And last, we need good curricula. I think that's the least 
of the problems now. We do have good curricula out there, but 
most schools are not using them, because school boards don't 
want to pay the extra money for the equipment that a good 
program has. Teachers don't know how to manage the equipment, 
and one other thing in my experience, the single biggest factor 
in the success of a good science program in a school was to 
have a go to person, so if the guppies die, the beans don't 
sprout, the teacher can go to that person and say, oh, my 
guppies died. What did I do? And he's, no problem, and she has 
new guppies the next morning.
    If you have that, in my experience, the program succeeds. 
If you don't, the program founders in a few years, and they go 
back to the traditional textbook approach.
    Thank you for your generosity and time, Mr. Chairman. But I 
just had to get my little sermon off my chest. I'm the son of a 
minister, and you can probably tell that. Thank you.
    Chairman McKeon. Thank you. Mr. Kind.
    Mr. Kind. Thank you, Mr. Chairman. Mr. Chairman, I do want 
to thank you for holding what's perhaps the most important 
hearing that we're having this year, and hopefully we'll have 
an opportunity for some future hearings on this topic area. And 
I want to thank all the witnesses for your testimony and for 
all the good work you're doing in the subject area.
    I had the pleasure of joining the chairman on the 
delegation that went to China over the Easter recess, and I 
think all of us came home with a profound sense of anxiousness 
or urgency in regards to what our own country is doing to 
better prepare our students and workers for the competition of 
the global marketplace.
    Just this morning I attended Progressive Policy Institute 
Forum over at Union Station that had Thomas Freedman there, who 
wrote the recent book, The World is Flat. It should be required 
reading for every member of the U.S. Congress in regards to 
what's happening today and where we're going with the global 
economy. And you get the impression that both China and India 
are making a huge investment in their education infrastructure, 
especially emphasizing the math, science and engineering 
fields. And this debate that we've been having in this country 
in regards to trade agreements or just globalization generally, 
I'm convinced is not so much a race to the bottom of cheap 
labor or no environmental standards and jobs being outsourced 
as it is today a race to the top. And China is a country that's 
not content in being good at just copying and mass producing. 
They want to be on the cutting edge of science and technology 
and medical research.
    And they're catching up very quickly. And that forty, fifty 
year cushion that we've had since the second world war because 
the rest of the world lay in the ashes of ruin has changed. The 
other countries are modernizing. They're investing, they're 
catching up. And we're seeing that now in the students and the 
skills that they're producing in those countries. And yet you 
feel a sense of frustration in regards to what it's going to 
take for our country to wake up. With industry leaders, 
policymakers, people in academia who I think get this already, 
but Dr. Magnanti, I'm not sure what the spark is going to be, 
what the new inspiring vision will be to really ramp this all 
up to where I think we need to go.
    And, Dr. Songer, we're hearing a lot about the Sputnik 
analogy. And I think it's true. We are at a Sputnik moment. But 
it's frustrating, because just saying we're at a Sputnik moment 
doesn't make it so, because there's nothing tangible or visible 
or something we can grasp and embrace to wake us up, as Sputnik 
did, when oh my God, we're losing the race to space. And it got 
everyone's imagination, and everyone got it immediately, and we 
marshalled the resources then, back then, to deal with that 
situation, and it worked. And yet we're missing the Sputnik 
moment, and I'm not sure what it's going to take in order to do 
it. Thomas Freedman thinks it's going to be energy independence 
could be the vision and the excitement to spur a lot more 
interest of our students to enter these areas.
    And there is cultural differences, Mr. Chairman, that you 
recognize in regards to the emphasis of education in China with 
the parents and grandparents. And Tom Freedman is out on tour, 
and in his book is fond of saying that when we were growing up 
as kids sitting at the dinner table, parents would always 
admonish us by saying, make sure you eat everything your plate, 
because there are kids in China and India that are starving.
    Now today the message from the parents should be, hey, 
kids, make sure you study very hard, because there are students 
in China and India that want your jobs. And I don't think we 
have that sense of urgency with our own parents and the kids 
and the active involvement which is crucial to the education 
success that these kids have.
    I've recently reintroduced legislation that I had in the 
last session of Congress we just reintroduced this year, H.R. 
2325, the 21st Century Innovation and Creativity Act. And it 
would establish competitive grants from the National Science 
Foundation, the Department of Education to increase education 
and job training opportunities in the math and science and 
engineering and technology fields.
    The goal is to be more innovative and creative in 
attracting students into these fields. Schools can provide 
students with scholarship stipends, for instance, to deal with 
the cost. They can expose students to different industries 
through internships, mentorships, fellowships, part time work. 
It also aims to increase the number of traditionally 
underrepresented students in these fields.
    Schools could also use the money for research equipment, 
facilities construction, repair and upgrading of your own 
infrastructure, which I think is desperately needed out there, 
create interdisciplinary programs in these fields that deal 
with industry and the rapid changes that are occurring there.
    I just think we really do need to ramp this up. And 
unfortunately, this year we've wasted almost five-and-a-half 
months talking about how to dismantle the New Deal when we 
really should be talking about the New, New Deal we should be 
offering the American people, and especially our students in 
getting into these fields. And we're not.
    And I appreciate the Chairman's and so many other Members' 
interest on this Committee, and hopefully we'll be able to find 
some common ground and work together and work with something in 
a bipartisan fashion, because I'm afraid if this Committee 
doesn't do it, the other Members of Congress are stuck on their 
own issue areas and on their own important topics, that I don't 
see it getting done at all, unless the leadership is going to 
come from this Committee.
    Just a quick question to the panelists. I mean, you guys 
are experts in what we're dealing with. But if you had to 
assign a grade to our country right now in regards to what 
we're doing to prepare the next generation for the competition 
of the global marketplace, and even more specifically, what 
we're doing in the math, science and engineering fields, what 
grade would you give us right now on an A to F scale? Mr. 
Augustine, do you want to give that a shot?
    Mr. Augustine. It's very difficult, because the system is 
bimodal. The best is very good and much of the rest is very 
poor, but to try to go along with the spirit of your question, 
it's probably somewhere between a D-plus and a C--D, Dog, 
plus--and a C-minus.
    Dr. Magnanti. I make it a practice not to give out grades 
unless I have the exam in front of me. So I like to, you know, 
sort of----
    Mr. Kind. And we're not looking for any grade inflation 
here either.
    Dr. Magnanti. Let me just offer maybe two comments. One is, 
Mr. Augustine played a central role in the Council on 
Competitiveness deliberations, and you may have seen the 
report, Innovate America. But very consistent with your comment 
in terms of your legislation, that council recommended the 
creation of a National Innovation Education Act that would be 
comparable to the NDEA. And you could argue whether it was 
Sputnik or whether it was the NDEA, but the NDEA played a 
prominent role for people like myself of going to graduate 
school and studying math and science. And that committee 
recommended 5,000 portable graduate fellowships. And would be a 
statement by the government that's saying science and 
engineering is important and we want to invest in it. So one 
could think of that.
    I think at the K-12 level, and I'm reluctant to say 
anything with an expert like Dr. Songer here in terms of an 
education expert, but educators tell us that people learn best 
when they're learning by doing and action learning.
    And I would say that if we could think about this math and 
science, bringing it more to life, and ask a simple question: 
Why do students like math and science? Some of them like math 
and science because they have attitudes, they've just got 
attitudes for doing this. Some do it because they're attracted 
to it, because it's exciting.
    And I think one of the things we can do is try to make math 
and science more exciting by making it more relevant, more 
learning by doing. I think in part we could do that by adding 
some engineering to math and science we're teaching in K-12, 
and also think of this as a system of embracing engineers in 
your local community to come in and help with those courses, to 
provide the role models that Mr. Ehlers was talking about. I 
think there's a sort of systematic way we can think about that 
of really infusing some new life into the K-12 system and 
really making it exciting for these young people.
    Mr. Kind. Ms. Streckfus, Dr. Songer, can you offer any 
grades to give us a sense of where we are?
    Ms. Streckfus. I was fortunate enough to attend the 
National Education summit a few weeks ago, and the data that 
was presented by the Governors and by Achieve is that for 100 
students who enter ninth grade in this country, about 16 are 
completing a 4-year degree by four to 6 years into the higher 
ed stream. So with that in mind, I would have to say D.
    Dr. Songer. I just want to add to Dr. Magnanti's comments. 
I think there are real pockets of success, and those pockets 
are A. I mean, when you look at the places where things are 
working, they're doing more of these hands-on science, they're 
doing really engaging math that applies to people's lives, it's 
very exciting. The problem is that in any one child's 
trajectory of K-12 education, they might get one or two of 
those, and that's not enough to sustain them in becoming a 
science or math major in all cases. Sometimes they get that 15-
minute conversation that makes a big difference, but a lot of 
times the pockets of success they get in their own life is not 
enough. So the overall system I would say is a D.
    Mr. Kind. Thank you. I thank you again, Mr. Chairman.
    Chairman McKeon. Dr. Price.
    Dr. Price. Thank you, Mr. Chairman. I appreciate the 
opportunity to ask some questions. I apologize for being late 
and missing your opening statements. By way of introduction, 
I'm a physician, which in some circles makes me a scientist, in 
most circles not. And as an orthopedic surgeon, even in the 
physician community, I'm not a scientist. But I believe that 
there are very few things that we will deal with that are as 
important as the topic that we're discussing today.
    As a physician and a surgeon and one of those that likes to 
see what you're trying to fix and then be able to prove that 
you fixed it, it's a very simplistic way to look at things, but 
there are wonderful ideas flowing around here from your 
testimony and others who have spent, if not a lifetime, a 
number of years trying to increase the visibility and the 
importance from a policy standpoint of science and math 
education.
    My concern, my belief is that it is cultural, as has been 
stated, and I don't mean from a diversity standpoint, I mean 
from an American culture. We don't have a culture now that 
seems to encourage young people to get into math and science. I 
think we did at one point. I don't know what it was that 
necessarily changed, because it wasn't Federal involvement. It 
certainly wasn't money from the Federal Government that 
inspired the United States to be No. 1 in the world from a 
scientific and math standpoint for years.
    So I--there's somewhere a spark that I think ought to be 
identified. I'm not bright enough to figure it out, but that 
ought to be identified that will allow us then to open up those 
doors once again.
    So my question to you is probably more expansive than you 
want to answer, and there isn't anybody recording this, so you 
can feel free to say anything you like, and we won't tell 
anybody, I promise. If you, in your wildest dreams, if you 
could do one or two things that would create that spark, and 
I'm not talking about specific programs, but something to 
change the culture, because I sense that the culture in China 
and India is not one that is like ours that is making it so 
it's difficult to find those kids who are interested.
    What--is there a spark, or am I tilting at windmills here?
    Dr. Magnanti. At one point, somewhat facetiously, I 
suggested that we have this intelligent program called L.A. 
Law. We needed one called Detroit Manufacturing. And it's 
somewhat facetiously, but I think in some ways to have some 
public expression that celebrates math, science, engineering, 
however you want to think about it, and to have again a public 
expression of that in a way that young people find exciting.
    And so I can imagine something of that order. I can imagine 
a public campaign that we could all undertake with the 
educational system working, the government working with 
industry to try to make the case that math, science and 
engineering is exciting to the world. And I can imagine a wide 
variety of ways in which we could map that out.
    But I think something that truly sparks the Nation in that 
sense would be useful.
    Ms. Streckfus. We did focus groups a few years ago with 
parents, and what we found was that parents didn't want their 
kids to be like academicians. They thought they were boring. 
They thought they didn't have fun. I'm sorry. These were just 
our findings, and this isn't recorded, right?
    [Laughter.]
    Ms. Streckfus. But it was a major obstacle in getting 
parents, in the conversations that we had in the focus groups, 
in getting parents to see the value in high levels of math and 
science, because they thought their kids would be in a cubicle. 
They thought, you know, they wouldn't have social interaction, 
particularly the girls wanted that when we talked to the 
students.
    So, part of what I think needs--and what we're trying to do 
with our teen website is to frame exciting opportunities of the 
future. What will it be like in 20 years, and do you want to be 
part of a team that will be able to do that? For instance----
    Dr. Price. Excuse me. Why didn't the generation--why didn't 
a generation ago, why didn't those parents say, I don't want my 
child to be in a cubicle? I mean, what's different now that 
makes it so that the parents of a generation or two ago said 
that this is a great idea, and now not?
    Ms. Streckfus. All kids, all kids are different, what No 
Child Left Behind is trying to do. And there's still that small 
group that is interested, that wants to do. But we need in this 
country to get many, many, many more students to high levels of 
math and science, not just if they're going in a career for 
math and science, but if they're going to live in a world where 
they have to think about their own health care.
    Dr. Price. We all agree about that.
    Ms. Streckfus. Yeah. So I think that what we were trying to 
do is to work with Hopkins to look at these world health 
problems that will be solved in 20 years, and if you want to be 
part of a team that will do that, this is the kind of work that 
you're going to have to do while you're in K-12 or higher ed to 
be part of that exciting team.
    Dr. Songer. When they look at or talk to scientists about 
why they became scientists, they almost always have some 
seminal experience where they've experienced the science in a 
very meaningful, personally meaningful way. So I think that has 
to be the spark. And how we get that on a wider scale is a 
really good question, because it's very hard sometimes to 
provide those kinds of really engaging experiences where you 
delve deep into a topic within the traditional formal schooling 
that we have right now.
    So, does that mean it has to be part of a community 
experience, or you know, some kind of program that AAAS 
sponsors? I'm not really sure. But I think that they key idea 
that we'd want to remember is that it is that engaging personal 
experience that will be make a difference.
    Dr. Price. Mr. Augustine?
    Mr. Augustine. May I just try to address your specific 
question of what has changed? And I think something has 
changed. And being by far the oldest member of this panel, when 
my--in my generation, I think our parents knew that the way to 
a better life was education, because most of them didn't have 
it. I was the first in my family to go to college, the second 
to go to high school. But my parents knew that that was where 
it was at.
    And you had a choice. You could become a lawyer. That means 
3 years of law school. You could become a medical doctor. That 
means, what, four or 5 years. You could become a Ph.D., six, 7 
years. You could become an engineer in 4 years. And so 
engineering for my generation was the opening door. My 
children, my daughter is a lawyer, but engineering for our 
generation was the chance, and I think that's changed.
    Dr. Price. That's interesting. Fascinating. Thank you so 
much. I yield back.
    Chairman McKeon. Thank you. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. I think this has been a 
good conversation for a lot of reasons. For one reason, those 
of us who were able to attend the hearing I think realize the 
need of us talking to each other more about the future of our 
country.
    I'm going to give a couple of examples, because I think 
you've really done a good job of answering the question. I 
recently attended a visit to a Boys and Girls Club in Minnesota 
in St. Paul in a very, very poor urban neighborhood. And I met 
a young man who was approached by one of the site supervisors 
at Boys and Girls Club saying, nice to meet you, and why are 
you launching rockets on the back of our area? And he thought 
he was going to get in trouble. He thought the police were 
going to get called, whatever. And he said, well, you know, I 
don't know. I saw a book and I just was kind of curious. And 
they invited him in.
    A couple of years later, this young man now teaches the 
rocket program at the Boys and Girls Club where we have 
children of very diverse language, social, religious 
backgrounds, but they all have the commonality of poverty, with 
a young person that they look at, even though he's Spanish and 
not Somali, that they can relate to. That young man is going to 
be going to school because of the TRIO program, because it 
provided an opportunity through TRIO to have someone in the 
high school to be there to kind of mentor him, because his 
parents didn't graduate necessarily from high school let alone 
go to college to figure out how to fill out all the paperwork 
to apply for college and to have someone help that family even 
with the financial aid paperwork.
    So, we have a lot that Congress can be involved in, in 
creating opportunity for students, whether it's supporting 
after school programs, supporting college opportunity for 
families who might have someone who would be eligible to help 
that family and that student work through it.
    Then I've had two science teachers, one at Hancock 
Elementary--and these are both in St. Paul--and I have great 
suburban teachers, too, but you mentioned especially the target 
of urban schools, and Gaultier School in St. Paul where I met 
science teachers who helped and reinforced and mentored one 
another in grade schools but the last science teacher, Mr. 
Childs, his wife was talking to me about how things started 
coming home from Home Depot, and things started happening down 
in her basement. She kind of held her breath. She said, I 
thought for a minute I was going to get that cabinet I had been 
asking for. She didn't begrudge the family income going toward 
the students at Gaultier Elementary.
    But when we start talking about public education is a black 
hole, always having their hand out, how teachers repeatedly 
have these cushy jobs where there's no accountability and all 
of our students are failing, why in heaven's sakes would 
anybody in their right mind decide, I want to be a teacher? 
When I decided to go into public education and get my license 
to teaching, teaching was a respected education. People were 
proud of our public school system. Do we need to improve it? 
Absolutely. Does it have changes that need to happen? I agree. 
Do we need to have high standards and accountability? You bet.
    But this Committee and the way it presents the challenges 
facing public education, we often do a great disservice and 
discredit to our public school system in the way that even we 
discuss the challenges and the problems that are out there. We 
always hear about the problem teacher in public schools. We 
don't hear about Mr. Childs, who takes money out of his own 
income to create that active learning.
    The testing concerns me, and I'm a social science teacher. 
I like to say science, but it's social science. I don't do math 
or solve the problems of the world like Mr. Holt can through 
physics. But we tried to have an interdisciplinary curriculum. 
In other words, when I would teach World War II, I would talk 
about all that was going on with science and physics. The 
excitement, the good things, the bad things that can come out 
of science, the challenges.
    When teaching geography, teaching the ecology, how water, 
soil, land, resources can make a difference in populations 
settling and being successful. When we start doing all this 
testing, and we do need to have accountability standards and 
testing, I agree--do we lose not only in your field of science, 
I think we lose in the social sciences, in literature, to 
chance to do that link to bring science in. And I think the 
point that got made about, you know, do we need I think you 
said Detroit engineering, you know, 1 hour, see what he's up to 
this week on television, I'm understanding that forensic 
science is kind of going through the roof right now with 
interest because of all the forensic science that's on. What 
role does media and does message have to do, you think, in 
order to keep people engaged?
    Chairman McKeon. Thank you.
    Ms. McCollum. I know. Everybody else went over their time, 
but we've got to go, so.
    Chairman McKeon. I'm sorry. Mrs. Davis.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman. I 
appreciate your all being here, and I can't help but feel as I 
sit here and I had a chance to look at this quickly, the road 
map that you were so involved in, Mr. Augustine, the road map 
for national security and how imperative it is.
    We've all talked about the Sputnik moment. You know, 
sometimes I wonder where's the sense of outrage that we haven't 
been able to make some progress in some areas that had been 
talked about for a long time? And I think you've certainly 
itemized some of those areas in which we need to work harder.
    I wanted to ask you, because--and I admit this has been a 
personal interest of mine. But it sometimes surprises me that 
there hasn't been more emphasis on nationally board certified 
teachers. Is that a program that you're familiar with in the 
states? North Carolina, California have done a lot with this. 
And part of my question is, I appreciate the fact that in your 
company, Lockheed Martin, that you got involved, that you 
helped teachers with fellowships, you brought people into the 
workplace. Am I wrong in saying where is everybody else in 
this? I mean, I think that you can cite a number of really 
fine, wonderful examples, and certainly we have them in San 
Diego, and I applaud those companies.
    But in many ways, I don't see that this is something that 
really has taken hold in the country, that people feel a real 
investment in. When I mention nationally board certified 
teachers, we've created a lot of hoops for people to get into 
that program. And it seems to me that if companies would invest 
even in one teacher, what kind of a statement that would make 
to do that. I may be talking about something that you're not 
familiar with, but I'm wondering, you know, where is more of 
that coming from the private sector? Because they're the ones 
that are suffering. I have trouble even when I interview for 
positions finding well qualified people. I know what it's like 
for the private sector, and certainly in math and science.
    Mr. Augustine. Well, I'm probably not as well qualified to 
comment on that as my colleagues, so I'll be brief. But if I 
understand the program you're describing, it's a program 
whereby people who are subject matter experts can teach. Is 
that correct?
    Mrs. Davis. Well, the nationally board certified program is 
one in which teachers can demonstrate their excellence in a 
particular area, all the way elementary through high school. 
And it's--when we talk about people demonstrating performance 
and being paid differently, some states have given some 
additional dollars to people. They have compensated them in 
some way. They've encouraged them to go into low performing 
schools. And it's a tool that could be more widely used.
    And if in fact you're not familiar with it, that tells me 
something. I'm not concerned that you're not familiar on a 
personal level, but that tells me something. And, Mr. Chairman, 
I think, you know, generally it's just something that we can 
use as a tool. It's not a silver bullet. I don't think there's 
a silver bullet out there. I think it's a combination of 
factors.
    Mr. Augustine. I like the concept that you describe. And 
you say why doesn't it work better than it does, and I suspect 
it comes back to the point of unfortunately, teaching doesn't 
command the respect that it once commanded. And it's a cultural 
issue, and I don't know how you legislate respect.
    I do think one thing we could do much better is to put up 
examples of successful teachers, particularly to attract young 
women in to science and technology and minorities. If they 
could see people who have succeed, who were excited about what 
they did and that made good contributions, I think that may be 
the best way to change this cultural problem we face.
    Mrs. Davis. Perhaps I can just focus on Dr. Magnanti for a 
second then, because I think one of the problems as I 
understand it is how many women, how many minorities are 
serving in top faculty positions at your university.
    Dr. Magnanti. This is a significant issue, though I'm glad 
to say we see some progress at the University of Michigan, 
Princeton University, RPI, MIT have women presidents now. We 
see I think more women in academic leadership positions in our 
country.
    I can't help but think, as a bit of an aside, given our 
last two Committee Members to speak, and I looked to my left, 
we ask what has changed in terms of the educational system, and 
I think Mr. Augustine pinpointed it well in terms of education 
as a road to upper mobility. But if we go back thirty years 
ago, forty years ago, maybe even longer, when I was in K-12, 
we'd go back a long time ago, what opportunities did women have 
at that point in terms of career opportunities, and what were 
their opportunities? It was teaching and nursing, by and large. 
And being secretaries, right?
    Now it's great for the nation. We've got this enormous set 
of other opportunities that women have in our society, and it's 
a wonderful thing for us. But it means that we I think have 
extracted some of that wonderful talented women from the 
education, K-12 education, are now doing other things. And I 
think to think of that systemically, and what's the systemic 
effect of that. And I think things like salary and other things 
I think are a measure of this in terms of how we think about 
it. But we didn't need maybe as high salaries then because 
women didn't have other opportunities.
    So I think thinking this as a system, and I think it's 
another rather significant change in terms of the overall 
landscape of the K-12 system.
    Mrs. Davis. Thank you. I appreciate that. And if you can 
continue to help us out with the kind of investment that's 
really required to get the doctoral students in to make the 
connections between K-12 and the universities and then into the 
private sector, public sector, I think that's important.
    And it is a national security issue. And I think that we 
really don't get that yet.
    Dr. Magnanti. If I could also offer, I think the situation 
with women in terms of engineering and science is improving 
some. We're up to about half of our incoming class now are 
women at MIT, which startles people when they hear it, and the 
Nation is about 17 to 20 percent. But the issue of minorities 
is much more drastic, and I think it's a much, much more 
serious concern. Both are of concern, but we're just not 
attracting enough minorities to engineering and science.
    Mrs. Davis. Thank you, Mr. Chairman.
    Chairman McKeon. We've been called to vote. We have just a 
couple of minutes to get over there now. But, you know, I think 
it's not just teachers that have lost respect. I think it's 
attorneys, it's bankers, it's policemen, it's across the board 
I think our sixties didn't help a lot. And I think it's going 
to take some work to get that respect back, and it has to start 
at a young age with children, and then we develop--we're going 
to have to work hard to develop that.
    Thank you very much. I think this has been an outstanding 
panel, an outstanding hearing. I hope that you'll stay in touch 
with us as we go through the higher ed reauthorization and as 
we work more in this area. We have a lot to do.
    Thank you very much. This panel stands adjourned.
    [Whereupon, at 11:53 a.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

Statement of Hon. Jon C. Porter, a Representative in Congress from the 
                            State of Nevada

    Good Morning, Mr. Chairman. I am pleased that the subcommittee is 
holding today's hearing on the challenges our educational system faces, 
particularly in the fields of math and science. I appreciate our panel 
of witnesses for joining us today and the diverse perspectives that 
they can provide us on this important issue.
    One of the building blocks of our nation's success throughout our 
history has been the ingenuity and invention which allow us to 
continually overcome the challenges we face and fill the needs that we 
have. This ability has traditionally been the product of a free-
thinking and open society, in concert with the excellence of the 
education available to us. As our dynamic economy continues to grow, we 
must continue to rely on this ingenuity and vitality of thought. 
Excellence in the fields of math and science must be a priority for 
this to occur, as our increasingly technological society requires 
increased research and scientific engagement.
    The basis for these abilities lies firmly in the ability of our 
elementary and secondary schools to provide the highest quality math 
and science education available. To ensure that this education is of 
the finest quality, Congress, in concert with States, local education 
agencies, and institutions of higher education, must strive to provide 
the necessary incentives to bring our best and brightest math and 
science teachers into the classroom.
    In my own school district, we hire approximately 2000 new teachers 
per year. A significant portion of these slots are teachers of math and 
science. Our tremendous growth has brought significant challenges in 
recruiting the finest teachers. We can all work together to engender 
greater interest in these fields, so that we can continue our strong 
tradition of technological advancement.
    Again, Mr. Chairman, thank you for calling this hearing today on 
this most important issue. I look forward to the testimony of our 
witnesses and am hopeful that we can work together to provide 
excellence in math and science education to all of our students.

                                 <all>

</pre></body></html>
